<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





           BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA

=======================================================================

                                (115-1)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 1, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-844 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota



















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Frederick W. Smith, Chairman and Chief Executive Officer, FedEx 
  Corporation:

    Testimony....................................................     7
    Prepared statement...........................................    62
    Responses to questions for the record from Hon. Andre Carson 
      of Indiana.................................................    77
David W. MacLennan, Chairman and Chief Executive Officer, 
  Cargill, Incorporated:

    Testimony....................................................     7
    Prepared statement...........................................    79
Ludwig Willisch, President and Chief Executive Officer, BMW of 
  North America:

    Testimony....................................................     7
    Prepared statement...........................................    84
    Responses to questions for the record from Hon. Andre Carson 
      of Indiana.................................................    90
Mary V. Andringa, Chair of the Board, Vermeer Corporation:

    Testimony....................................................     7
    Prepared statement...........................................    91
Richard L. Trumka, President, American Federation of Labor and 
  Congress of Industrial Organizations (AFL-CIO):

    Testimony....................................................     7
    Prepared statement...........................................   103
    Responses to questions for the record from the following 
      Representatives:

        Hon Peter A. DeFazio of Oregon...........................   110
        Hon. Andre Carson of Indiana.............................   111

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Henry C. ``Hank'' Johnson, Jr., of Georgia..................    59
Hon. Elizabeth H. Esty of Connecticut............................    61

                       SUBMISSIONS FOR THE RECORD

Letter of February 1, 2017, from AAA, et al., to President Donald 
  J. Trump, submitted by Hon. Bill Shuster, Chairman, Committee 
  on Transportation and Infrastructure...........................   113

                        ADDITIONS TO THE RECORD

Statement of Matt Smith, President, Greater Pittsburgh Chamber of 
  Commerce.......................................................   123
Statement of the National Association of Small Trucking 
  Companies, submitted by Hon. Brian Babin, a Representative in 
  Congress from the State of Texas...............................   125

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
           BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2017

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. Good 
morning. I want to welcome you all here to the first full 
committee hearing of the House Transportation and 
Infrastructure Committee for the 115th Congress.
    I want to welcome our new Members; we have about 14 new 
Members on the committee. And, of course, welcome to our 
returning Members. I look forward to working with each and 
every one of you during this Congress, which I believe will be 
a very, very busy Congress. And our committee will be very, 
very busy.
    This morning's hearing is about looking into the future and 
how we build a 21st-century infrastructure for America. But 
before we begin, I would like--I think it is important for us 
to remember some of the successes that the committee has had in 
the last Congress.
    Our committee worked in a bipartisan fashion, was 
incredibly productive over the last 2 years. We were able to 
move large, complex pieces of legislation to improve America's 
infrastructure. The FAST Act [Fixing America's Surface 
Transportation Act], the WIIN Act [Water Infrastructure 
Improvements for the Nation Act], our PRRIA [Passenger Rail 
Reform and Investment Act] and Amtrak reforms bill, the PIPES 
Act [Protecting our Infrastructure of Pipelines and Enhancing 
Safety Act], the Coast Guard Authorization Act, and other 
committee bills are now law because we were able to build 
consensus and get things done for the American people. Our 
track record speaks to the hard work of our Members and our 
staff.
    For our new committee members here today, take note. Our 
goal is the same level of success for this Congress, so get 
ready to roll up your sleeves and get to work, or get ready to 
jump in the ditch with the pick and the shovel. We got a lot of 
work ahead of us.
    America's infrastructure is the backbone of the economy. As 
a people, we are bound together by our values, our dedication 
to our liberty, our freedoms. But physically, we are bound 
together by our transportation network. And this is a large 
country, and it wouldn't be the great country it is today if it 
wasn't for that physical connection, coast to coast, northern 
border to the southern border States. And from the beginning of 
our very First Congress that authorized the first Federal 
lighthouses, the transcontinental railroad, to the Panama 
Canal, to the Interstate Highway System, to the Nation's 
airports, the Federal Government has played a vital, 
constitutional role in ensuring the American people and our 
economy are connected through infrastructure.
    And, in fact, those of you in the audience, behind you we 
put up two of which I think are important pieces of history. 
First, Adam Smith, ``The Wealth of Nations,'' talking about 
what Government's to do for the people. And basically, it boils 
down to three things. It is: provide security, preserve 
justice, and erect and maintain infrastructure to promote 
commerce. So that is a fundamental role of Government, whether 
it is the Federal Government, the State government, or local 
governments.
    And then, of course, the Founding Fathers, who all read 
Adam Smith, when they penned the Constitution, article I, 
section 8 talks about powers of Congress to protect the common 
defense, regulate commerce, and to establish post roads. And, 
of course, the post roads today are the highways and byways of 
our Nation.
    And I am proud to say that the first highway authorized and 
appropriations went to to build a road happened to go through 
my district and the home of one of our witnesses here, Mr. 
Trumka, right through Fayette County and Greene County, 
Pennsylvania, the national road, which is Route 40 from 
Baltimore to the Ohio Territories.
    So, again, from the beginning of the founding of our 
Nation, it is important to--and that highway, by the way, is 
over 200 years old. It was finished in about 1815 or 1816. So, 
again, from the beginning of our country, the Federal 
Government has had a role, and it needs to have a strong role.
    And a strong infrastructure means a strong America, an 
America that competes globally, supports local, regional, 
economic development, and creates jobs. However, our 
infrastructure will face significant challenges in the future, 
and we are facing challenges today to rebuild it.
    But in the future, the forecasts predict that our 
population will grow from about 320 million just last year to 
400 million by 2051. The movement of freight is expected to 
increase by 40 percent over the next 30 years. And I have--
right in my district I have Route 81 that is a two-lane--or, 
excuse me, a four-lane highway that--it is--it looks like a 
railroad at night, because there are so many trucks on it, so 
much freight, so much commerce moving on that highway. And that 
is just one roadway in America. And there are many, many others 
that look like that.
    By the end of the next decade, air travel demand is 
expected to increase from 750 million passengers annually to 1 
billion. And transportation technology continues to evolve. 
Driverless cars, commercial drones, and commercial space 
transportation are just a few examples of this change, but more 
changes are coming. Our infrastructure policies have to keep 
pace with these changing technologies. We must be able to meet 
our infrastructure needs of today, but also be poised to tackle 
the challenges of tomorrow.
    One thing November's election taught us was that the 
American people are ready for their elected officials to 
rethink the way we do things here in Washington and challenge 
the status quo. This election also raised the profile of 
infrastructure in the minds of the American people and 
policymakers. In fact, I believe this was the first time a 
President ever mentioned the word ``infrastructure'' in an 
inaugural address.
    This feeling of optimism is echoed by over 400 associations 
who wrote in support of investing in infrastructure and fixing 
the Highway Trust Fund. Their thoughts are contained in this 
letter, which I believe I have here--I am supposed to hold it 
up, but I don't know where it went--this is the letter, 400 
different associations have signed it. And I would like to 
enter into the record.
    Without objection, so ordered.
    What this means for us, it means that we now have a unique 
opportunity. The wind is at our backs, and it is time to act on 
our infrastructure's needs. President Trump made a promise to 
the American people that he would reassert America's greatness. 
And from my perspective, that means ensuring that America is 
competitive in the crowded global marketplace of today and 
tomorrow. It means reimagining and building and rebuilding a 
21st-century infrastructure, leveraging resources from all 
levels of Government and the private sector.
    Modern infrastructure lets our people, goods, products, and 
crops get where they need to go more efficiently and at less 
cost. Improved roads and bridges reduce bottlenecks and 
problems that slow the flow of commerce.
    Modern infrastructure is an aviation system with truly 
modern, efficient, and transformational air traffic control 
technology. It is ports and waterways that let our farmers and 
manufacturers move their crops and products to remain 
competitive with other nations. It is rail systems that focus 
on more effective, efficient service in regions of the country 
where rail transportation works well. It is pipelines that can 
transport the energy products that will power us into the 
future. It is infrastructure that is resilient when natural 
disaster strikes. It is infrastructure that can be built 
faster, unburdened by bureaucracy and impediments to private 
investment. And it is infrastructure that encourages innovation 
and unleashes the next revolution in mobility.
    Modern infrastructure means jobs, because when 
transportation efficiency improves the bottom line for our job 
creators, then they can put more people to work. That is my 
vision for a 21st-century infrastructure, and it can be 
achieved if we work together and build it.
    I welcome our panel of experts here today, look forward to 
hearing from you. And your organizations have a unique 
understanding of our infrastructure needs. And as I look out 
there, they are all the users of the system and people that 
build the system but, again, use the system. And we really 
appreciate your taking the time to be here, from all of you. 
The positions you hold at your organizations are at the highest 
level, and I know that your schedules are very demanding, so we 
really appreciate you being here. And I think it demonstrates 
the importance of what we are talking about here today.
    Your companies and workers depend on the functionality of 
our transportation system networks, so your perspectives are 
critical to helping us shape the future of America's 
infrastructure.
    And with that, I would now like to yield to recognize the 
ranking member, Mr. DeFazio, for a statement.
    Mr. DeFazio. Thank you, Mr. Chairman. I very much share the 
sentiments you have expressed. I was interested to learn that 
the first earmarked highway project in America did run through 
your district.
    [Laughter.]
    Mr. DeFazio. So that is--hopefully we can----
    Mr. Shuster. It wasn't my father.
    [Laughter.]
    Mr. DeFazio. We can--is that the one they named after your 
dad? OK. And I hope we can bring back congressionally 
designated spending, where we set priorities for some small 
amount of our annual investment. We know our districts and our 
States better than Washington, DC, bureaucrats of either party.
    I also agree with your sentiment about challenging the 
status quo. I am going to talk about that now. The status quo 
has been, we are frozen in amber. We are refusing to invest in 
our infrastructure. Yes, the FAST Act was good. But part of it 
is paid for with funny money that will never show up because we 
didn't have the guts here to increase user fees.
    It is time to confront these issues. The American people 
get it. A number of all-red States have raised their gas tax. 
Nobody has been recalled or lost their election. The people get 
it. They are tired of sitting in congestion. So I am going to 
talk about real things.
    OK. Let's index the gas tax--radical proposal. We can index 
it to construction cost, inflation, fleet fuel economy. Gas 
will go up maybe 1.2 cents a gallon next year. Anybody think 
they are going to lose their election over that?
    But if we do that over the next 30 years, we can issue 30-
year bonds, tranched. We tranche the bond issuance of $500 
billion, which would mean $20.3 billion additional per-year 
expenditure, and we would make the Highway Trust Fund whole 
through the next three authorizations, and we would bring the 
Nation's infrastructure to a state of good repair in 14 years.
    And I think that's what the President called for last week 
in Philadelphia. He said, ``Fix it first.'' We do need to fix 
it first. We need to fix the 140,000 bridges that are falling 
down. We need to fix the 60 percent of the pavement on the 
National Highway System that doesn't just need another coat of 
asphalt, it needs to be totally restructured. And we need to 
deal with the $90 billion backlog in our transit systems, just 
to bring them up to a state of good repair, let alone offer new 
options.
    My plan would both allow us to bring it up to a state of 
good repair in a reasonable period of time, and to make new 
investments because it would make the Highway Trust Fund whole. 
That is all we would have to do, just index the gas tax, 
dedicate it, and issue the 30-year bonds.
    Now, second, let's talk about, again, a little bit of 
political will. We are collecting a tax every day from every 
American consumer who buys any imported good. They are paying a 
tax. And that tax is supposed to go to maintaining the Nation's 
harbors. Well, it isn't. Half the money, about, on an annual 
basis, goes into harbor maintenance work.
    That is why we have a $22 billion backlog to be able to 
accommodate the new ships, in addition to funds needed for 
failing jetties and other things. We are only spending half of 
the tax the American people pay every day. Every year. The rest 
of it is being diverted into la-la land. It is pretend deficit 
reduction. It is theoretically sitting in a $9 billion account 
in the Treasury.
    If we waive the House budget rules, and we spend that $9 
billion--which we took from the American people--for the 
purpose for which it was intended, and spend the full tax every 
year for the next 10 years, we could invest $27 billion in our 
harbors. That means they would be ready to receive the big 
ships, we would take care of that $22 billion shortfall, and we 
could repair the jetties and make other improvements. That 
money is already available.
    We don't need a new tax, we just need to push the Budget 
Committee objections and some of the appropriators out of the 
way and say no, we are going to make it into a real trust fund, 
like we have for surface, and we are going to actually spend 
the tax for the purpose for which it is collected. Now, all 
that takes is a little bit of a challenge to the status quo. 
You don't even have to raise a tax.
    And then, third, our airports are in serious trouble: $32.5 
billion backlog to accommodate growing passenger demand. You 
have all been there. You have gone through what are essentially 
Greyhound bus stations instead of state-of-the-art terminals. 
Now, we haven't allowed them to increase the passenger facility 
charge. I have talked to all the airports.
    The largest airports have said to me, ``Look, let us raise 
the passenger facility charge, a user fee only on people who go 
through that airport, and we will forgo the AIP [Airport 
Improvement Program]. You can give that money to the small and 
moderate-sized airports, so they can do needed projects, and we 
will pay for our own projects with bonding, by dedicating an 
increase in the PFC [Passenger Facility Charge].'' Many of 
these airports are bonded out.
    Now, the airline industry says, ``Oh, if you increase the 
PFC by $2, nobody will ever fly again. They will all get in 
their cars.'' Oh, you can charge me $50 to put my bag in the 
overhead, and I will keep flying and smiling. But if I had to 
pay $2 so I don't have a Greyhound bus experience when I go to 
fly on an airplane and stand in these unbelievable lines 
because we have inadequate capacity, I won't ever fly again? I 
mean that is total B.S. We all know that. They have some 
economist somewhere locked in a closet who claims he can prove 
it. What they are afraid of is if airports expand we might have 
more competition. If we have more competition, that might mean 
that prices of tickets go down. That is the real reason that 
they object.
    So that takes a little political will. So here are three 
steps we could take to put nearly $600 billion to work, some of 
it tomorrow. Remember, there is a provision in the FAST Act 
that I got in there that says any additional funds allocated to 
transportation spend out immediately through the formulas we 
have already adopted. We don't have to go through a multiyear 
process, we don't have to go through debates, or anything else. 
I would hope that we would add in congressionally designated 
spending for some portion of these new projects. But, other 
than that, no other changes are necessary.
    The Harbor Maintenance Trust Fund, waive the House budget 
rules, spend the money we have taken from the American people. 
And, yes, stand up to the airlines and say, ``Look, come on, 
you know, we want people to have a good experience both in the 
air and on the ground. Let's rebuild America's airports to meet 
the additional demand with a small addition on the passenger 
facility charge.''
    Now, passenger facility charge is in the jurisdiction of 
this committee. Harbor Maintenance Trust Fund is a shared 
jurisdiction, obviously. And then, of course, the indexation of 
the gas tax would have to be approved by our colleagues on Ways 
and Means. But I think if we joined together--like we did when 
we got an increase in the gas tax over the objections of many 
in Congress by having a bipartisan coalition to increase the 
gas tax in 1993, the last time it was increased--we could do it 
again. I hope that we can join and make common cause in these 
areas, because we do need to rebuild our country.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. DeFazio. And now I would like 
to welcome, again, our panelists. Thank you for being here. I 
will introduce you now in group, and then start the testimony.
    But first off, Mr. Fred Smith, who is the chairman, CEO, 
and founder of FedEx Corporation. FedEx is a Fortune 500 
company with over $50 billion in annual revenue. FedEx moves 12 
million packages daily through the global transportation 
system, which gives them great perspective on the challenges 
that we faced.
    Next, Mr. David MacLennan--Lennon, like Lennon, John 
Lennon, there. Good job, Cohen.
    [Laughter.]
    Mr. Shuster. Sorry about that. Chairman and CEO of Cargill, 
Incorporated. Cargill is the largest privately held corporation 
in the United States, producing food, agricultural, financial, 
and industrial products throughout the world. Cargill exports 
more than 200 million tons of dry bulk cargo each year, and it 
is a $120 billion-a-year corporation.
    Mr. Ludwig Willisch, president and CEO of BMW America. BMW 
has invested over $7 billion to build and upgrade its 
manufacturing plant in Spartanburg, South Carolina, which 
employs nearly 9,000 people. Since it opened in 1992, American 
workers have produced 3.7 million vehicles, exporting 85 
percent of them through the Port of Charleston.
    And next, Ms. Mary Andringa, chairman of the board of the 
Vermeer Corporation, based in Pella, Iowa. Vermeer manufactures 
and distributes agricultural, forest, and utility equipment to 
over 500 of its global dealerships. It exports 30 percent of 
its parts worldwide, and annual sales of over $1 billion.
    And finally, Mr. Rich Trumka, president of the AFL-CIO. The 
AFL-CIO is the umbrella organization for over 50 U.S. unions 
representing 12.5 million working men and women. And, of 
course, a fellow Pennsylvanian. Welcome to each and every one 
of you, and I look forward to your testimony, and looking 
forward to working with you as we move forward.
    I now ask unanimous consent that our witnesses' full 
statements be included in the record.
    Without objection, so ordered.
    And since your written testimony has been part of the 
record, we would ask you to limit your oral testimony to 5 
minutes.
    And with that, we will start with Mr. Smith. Please 
proceed.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Shuster. I don't think your mic is on. Is it?
    Mr. Smith. Yes, it is now.
    Mr. Shuster. Pull it a little closer to you, maybe.
    Mr. Smith. Is that better? OK.
    Mr. Shuster. There you go, thanks.
    Mr. Smith. I served in the Marine Corps, so I have to be 
instructed carefully.
    [Laughter.]

 TESTIMONY OF FREDERICK W. SMITH, CHAIRMAN AND CHIEF EXECUTIVE 
 OFFICER, FEDEX CORPORATION; DAVID W. MACLENNAN, CHAIRMAN AND 
    CHIEF EXECUTIVE OFFICER, CARGILL, INCORPORATED; LUDWIG 
 WILLISCH, PRESIDENT AND CHIEF EXECUTIVE OFFICER, BMW OF NORTH 
    AMERICA; MARY V. ANDRINGA, CHAIR OF THE BOARD, VERMEER 
    CORPORATION; AND RICHARD L. TRUMKA, PRESIDENT, AMERICAN 
 FEDERATION OF LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS 
                           (AFL-CIO)

    Mr. Smith. So, thank you, Mr. Chairman, Mr. DeFazio. Let me 
say hello to a couple of old friends, Representative Cohen, who 
represents our hometown headquarters, and Representative 
Duncan, from the more prosperous eastern part of our State. So 
it is good to see you.
    As you mentioned, my written statement is in the record. So 
let me make a few points. I think at FedEx Corporation we are 
uniquely situated to comment on these matters. I am proud to be 
here representing over 450,000 FedEx team members around the 
world. We have four transportation companies that are affected 
by these infrastructure questions: FedEx Express, the largest 
all-cargo and express air carrier in the world; FedEx Ground, 
the second largest ground parcel network; and FedEx Freight, 
the largest less-than-truckload system in the United States; 
and finally, FedEx Trade Networks avails itself of the maritime 
transportation.
    We serve 220 countries, link 99 percent of the world's GDP, 
operate 650 aircraft, serve 375 airports, operate 150,000 
motorized vehicles. As you mentioned, we move 12 million 
shipments on average per day in the nonpeak season. We fly 255 
million miles each year. And last year FedEx vehicles drove in 
excess of 5 billion miles on our highways. We strongly support 
a modernized transportation system that includes the best air 
traffic control system, updated sea and airports with the 
latest in technology, and well maintained and expanded highway 
systems.
    So let me talk briefly about all three of those. Improving 
the ATC system, ensuring transparency and the payment for that 
system, and assuring irrelevant provisions are not added to the 
legislation should be priorities of this committee. We support 
an independent ATC system, and believe that such an enterprise 
will work more effectively and efficiently than the current 
one. The new ATC system must be allowed to operate as a bona 
fide stand-alone business organization separate and apart from 
the Government and responsible to its users.
    Regarding the interstate road system, our interstate system 
is now over 60 years of age. It is in desperate need of 
updating. Nearly 70 percent of all freight tonnage moved in the 
U.S. moves on trucks. I think you mentioned that, Mr. Chairman. 
We need both short- and long-term investment. The surface 
transportation industry has been virtually unanimous in 
supporting an increase in the Federal system to pay for this 
system. First, through the gasoline and diesel system, and 
moving to a user fee system, given the emergence of noninternal 
combustion engines in the form of electric and hybrid vehicles, 
some of which we are operating in Washington, DC, as we sit 
here today.
    And lastly, we strongly support a new Federal standard to 
move the twin trailer limits in this country from 28 feet to 33 
feet for the less-than-truckload and ground parcel businesses. 
Quite frankly, these networks are being overwhelmed with the 
growth in e-commerce. Thirty-three-foot twin trailers are 
permitted in certain States. We have operated them for many 
years. They are safer, save millions and millions of gallons of 
fuel, reduce emissions. They take vehicles off the road, which 
gets to the congestion issue that you were talking about, Mr. 
Chairman.
    I might point out that the standard in Mexico is twin 40-
foot trailers. So this is not a big stretch. This would have an 
instant improvement, environmentally and in the national 
productivity in our less-than-truckload and ground parcel 
networks.
    Let me just close with saying to you there has been a lot 
of conversation in Washington these days about trade. FedEx is 
ardently in support of expanded trade, not less trade. We 
certainly acknowledge the protectionism and mercantilism, 
particularly in China. But the secret to that is to expand our 
access to their market, not shut down the trading system that 
has made this country so prosperous.
    Thank you for giving me the time to make these remarks.
    Mr. Shuster. Thank you, Mr. Smith. Now, Mr. MacLennan.
    Mr. MacLennan. Chairman Shuster, Ranking Member DeFazio, 
and distinguished members of the House Committee on 
Transportation and Infrastructure, I appreciate the opportunity 
to be here today. I am Dave MacLennan, I am chairman and CEO of 
Cargill. We provide food, agriculture, financial products and 
industrial products to the world, and our mission is to nourish 
the country and nourish the world in a safe, responsible, and 
sustainable way.
    Our company is a great American success story. It was 
founded in 1865 by William W. Cargill, with one small grain 
warehouse in Conover, Iowa. That elevator almost went bankrupt 
just a few years later, when the railroad stopped coming to 
Conover. Mr. Cargill knew that transportation drives growth in 
agriculture. So he followed the infrastructure. And today we 
have 150,000 employees in 70 countries around the world.
    Thank you for your past leadership on reauthorization of 
WRDA, and--as well as the passage of the FAST Act. I am 
encouraged by the interest of this committee in modernizing our 
Nation's infrastructure, and eager to discuss the challenges 
facing our agriculture support system.
    For much of our history, America's infrastructure has been 
the envy of the entire world. It has allowed our country to 
become the economic powerhouse that we are today. And certainly 
for agriculture in the rural communities which serve 
agriculture, moving product for trade and export is critical. 
But while many other countries are building the roads, ports 
and railways of the future, we are falling behind. 
Infrastructure investments will allow American companies to 
compete effectively with our counterparts abroad and create 
long-term growth that will benefit and create jobs for all 
Americans.
    Twenty-first-century infrastructure includes shiny objects 
like electric cars and microgrids and high-speed rail. But as 
exciting as those new technologies are, we also need to think 
about our traditional transportation assets. So my testimony 
will focus not on the shiny objects, but on the ones that can 
get rusty, like rails, roads, bridges, and the waterways of 
rural America.
    Mr. Chairman, agriculture is the largest user of freight 
transportation in the United States, claiming 31 percent of all 
ton-miles, according to the USDA. And in our world of thin 
margins, when infrastructure fails it ripples up the supply 
chain, and we all feel it.
    Cargill supports multiple modes of transportation. What is 
most important to us is making sure our customers can get their 
goods from point A to point B in an efficient, safe, and 
sustainable manner. Unfortunately, our Nation's transportation 
infrastructure is under unprecedented strain. Our inland 
waterways struggle because of aging locks and growing demand. 
Our seaports are not deep enough to accommodate newer and 
larger ships. Our railroads are experiencing capacity 
constraints, and our bridges and roads are crumbling, receiving 
a D rating from the American Society of Civil Engineers.
    If our ports fail, we cannot link Pacific Northwest grain 
farmers to the global market. If our locks and dams fail, we 
can't move the road salt that we mine in Louisiana up the 
rivers to keep roads safe in the winter in Pittsburgh. If our 
bridges crumble we cannot cost-effectively truck fertilizer to 
family farmers in Platte City, Missouri. And if our railroads 
are over capacity, we can't ensure enough ethanol makes it to 
New Jersey to be blended into gasoline for our cars.
    We know what it looks like when one mode of transportation 
fails and the consequences ripple up the supply chain. In 2005, 
when Hurricane Katrina shut down the gulf ports, we lost the 
ability to transport grain on our Nation's waterways. Losing 
this very efficient transportation capacity greatly impacted 
the price of corn paid to farmers, with U.S. corn prices 
falling 30 cents a bushel. In 2005, the U.S. corn crop was 10 
billion bushels, so that is $3 billion in lost market value at 
the time.
    In the chairman's home State of Pennsylvania, crumbling 
bridges near our beef plant in Wyalusing were recently bypassed 
for replacement. Reduced weight limits made them impassable for 
our carriers. And in the rural town where we employ more than 
1,700 workers, trucks moving beef to our customers, are focused 
to reroute, which adds millions of dollars in cost to our 
business today.
    So, in closing, our ability to fix our infrastructure, 
compete in the global market, and keep our economy growing will 
be influenced by the decisions of the people in this room. I 
urge you to invest in the food and agriculture and rural 
economies by reinvesting in the state-of-the-art transportation 
systems that we all know clearly got us here in the first 
place.
    Thank you again, Mr. Chairman, for the opportunity to share 
Cargill's views with you today, and I look forward to answering 
your questions.
    Mr. Shuster. Thank you.
    Mr. MacLennan. You are welcome.
    Mr. Shuster. Mr. Willisch, you may proceed.
    Mr. Willisch. Thank you, Chairman Shuster, and Ranking 
Member DeFazio, and members of the committee, for inviting me 
to participate in today's hearing. My name is Ludwig Willisch, 
and I am the head of the Americas for the BMW Group. I 
represent the more than 70,000 people who have jobs provided 
and supported by BMW in the U.S. alone. This includes 655 
dealerships across 48 States; 11 distribution centers in 8 
States; our headquarters in New Jersey; design studio, tech 
office, and testing facilities in California; a bank in Utah; 
financial services in Ohio; BMW Technology Corporation in 
Chicago; our carbon fiber manufacturing facility in Washington 
State, and BMW Manufacturing in South Carolina.
    Over the last two decades we have invested $7.5 billion in 
our South Carolina plant, now the largest facility in our 
global network. What is more, this plant earns BMW the title of 
the largest exporter of vehicles in the United States by value. 
We estimate that BMW had around $10 billion in U.S. dollars to 
export last year, alone.
    We have a talented team and achieve much within our 
company. However, no one in this industry can go it alone. 
Every auto company relies on a network of suppliers, service 
providers, reliable infrastructure, and the right regulatory 
framework to deliver for our customers. In this spirit, I would 
like to give you a sense of how important these issues are 
through BMW's eyes.
    The current BMW X3 was designed by an American, Erik 
Goplen, out of our Los Angeles design studio, Designworks. Once 
the design was finished, it was sent to Munich for engineers to 
take the car from page to pavement. The next step is production 
in the United States. Our logistics network in South Carolina 
includes 40 nearby suppliers, the Greer Inland Railway Port, 
and the Greenville-Spartanburg Airport. We rely on these roads, 
rails, and runways every day.
    A finished X3 leaves the plant by rail, with the majority 
heading to the Port of Charleston for international export to 
140 countries. On this point I would like to give special 
thanks to the committee, and in particular Chairman Shuster and 
Ranking Member DeFazio and Representative Sanford of South 
Carolina, for their support of the Water Resources Development 
Act. The Port of Charleston is absolutely critical to export 
success of BMW and a number of other companies.
    The remainder of the domestic vehicles are trucked to BMW 
vehicle distribution centers in States across the country. From 
those distribution centers, the X3 is then delivered to dealers 
in 48 States. Reliable transportation and infrastructure is 
vital to operating our business every day. Looking ahead at 
future mobility technologies, infrastructure becomes all the 
more important. Industry is making significant investments in 
automated vehicles, or AVs, to move them from test track to 
street.
    There are ways for the Government to support these efforts. 
Some of these opportunities are fairly straightforward. For 
example, the sensors and cameras in automated vehicles rely, 
among other things, on road markings and signs to orient and 
drive. Consistent AV performance can suffer if roads do not 
have adequate lines, road conditions are unpredictable, or 
signs and signals are all different. Consistent performance is 
vitally important, as it lays the foundation for customer 
trust.
    Other areas of necessary Government support are more 
involved, but crucial to the long-term success of AVs. BMW 
welcomed the Federal AV Policy Guidelines as a positive first 
step in creating a regulatory framework for AVs. Industry 
regulators and the public need to continue meaningful 
conversations to move forward. There is a lot of work to be 
done. But with so many stakeholder groups aligned on the 
desired outcomes, I am confident we can find a path forward.
    This is an opportunity that requires all stakeholders to 
bring their best ideas and open minds to the table. I look 
forward to continuing our conversation and working together to 
make tomorrow's potential a reality.
    Thank you very much.
    Mr. Shuster. Thank you.
    Ms. Andringa, please proceed.
    Ms. Andringa. Thank you, Chairman Shuster and Ranking 
Member DeFazio and members of this committee, for hearing a 
little bit about what it means for manufacturers to have an 
updated infrastructure system.
    Our company, Vermeer, was started 70 years ago by my dad, 
with one employee, one product, and really, distributing 
products locally. Today we have over 2,000 employees and 160 
different products. And I realize those numbers are small in 
comparison to my fellow board members and panel members here, 
but, you know, it represents, really, a lot of small and 
medium-sized businesses.
    In our country, 50 percent of GDP and over 50 percent of 
employment is connected with small and medium-sized businesses. 
And so, what my dad needed for infrastructure back in 1948 is 
different than what we need today. And as chair of Vermeer and 
former CEO, I have also had the opportunity to chair the 
National Association of Manufacturers, which represents 12 
million men and women who manufacture every day. When I first 
became involved with the NAM, we talked about how our goal was 
that the U.S. be the best place to manufacture. And in order 
for it to be the best, we need to have good, top-notch 
infrastructure. It has been at the top of our list for many 
years.
    So, in a company like ours, when we bring over 2,000 people 
in from anywhere from 30 to 70 miles' driving distance one way 
every day, we need safe, reliable roads for them to get to work 
safely, and also to be able to get home safely to their 
families.
    We also have 50 trucks, which ride every day into Vermeer 
with parts and pieces and go out as whole goods. So we need the 
good roads for that. Of the major roads in the U.S., 65 percent 
are deemed deficient. And also, I think we have to understand 
that road conditions often are a significant factor in 
fatalities on our roads.
    We also have hundreds of sales and service people who work 
with our distribution networks who are in urban areas, and they 
are dealing with congestion, particularly in the urban areas, 
and traffic delays, and sometimes a lot of frustration getting 
trucks in and out of the urban areas to our dealerships and to 
our customers.
    One of the things I thank this committee for is the work 
that you did on the FASTLANE grant. Because of that, we are 
going to now have an intermodal location in Cedar Rapids, Iowa, 
which is much closer to us than trucking containers to Chicago 
or Kansas City. That will help relieve some congestion that we 
have had in getting containers to ports.
    Bridges have been mentioned before, but I know just in 
Iowa, 21 percent of bridges in Iowa are deemed deficient. So 
again, it is a safety and a congestion and delay opportunity 
that we can fix.
    Airports are definitely in dire need of updates. We ship 
400 to 500 packages to our customers daily with air. We also 
buy a lot of commercial tickets, over 3,000 a year. And yet we 
have a lot of frustration with delays and airports. And I think 
some of the work that needs to be done yet on the longer term 
Federal Aviation Administration authorization bill is extremely 
important. Air traffic controllers are, in many cases, working 
without data and technology. And also, as we look at that 
NextGen implementation, the estimates are that that would be 
able to reduce delays by 35 percent, which would be 
significant.
    Manufacturers use energy, all kinds of energy. So it is 
very important that we have good and solid transmission lines. 
And it is really the internet of everything. So it's the way we 
communicate with our customers, with our dealers, with our 
employees in the United States and around the world, that makes 
broadband infrastructure so important.
    And it is also important because today we have smart 
machines in our factories. We also have smart machines out on 
job sites. And many times they are communicating with the asset 
owners.
    Over the last years, Vermeer has been involved in 
continuous improvement, or the Lean journey. And one of the 
things with Lean is you need to have flow. So you need to have 
flow of goods coming in on a timely basis, and you need to have 
whole goods going out on a timely basis.
    But another aspect of Lean is total productive maintenance. 
And I think that one has some applications to infrastructure. 
It is when we take a machining center, maybe a $1 million 
machining center, and periodically tear it down to the parts 
that are going to fail--we know they are going to fail--and we 
replace them. And the result is that we reduce our downtime on 
those machines, like, 70 percent, and we also reduce our cost 
of maintenance. And it seems to me that manufacturers know a 
lot about investing in our infrastructure to make sure we have 
a sustainable future. And I think that is the same kind of 
investment, proactive investment, we need in our infrastructure 
system in the United States.
    So, I would just like to say that this discussion has been 
going on for quite a while, and I really implore you all to 
take some major steps. We need a sustained, focused effort to 
really reverse the decline, and to make sure we have the 
infrastructure that we need to produce safe transportation, 
productivity, and also great jobs here in the U.S.
    So, thank you for the work your committee does.
    Mr. Shuster. Thank you. Now Mr. Trumka, please proceed.
    Mr. Trumka. I thank you, Mr. Chairman, Ranking Member 
DeFazio, members of the committee. It is a pleasure to be here 
with you today. This committee is known for working together 
and setting aside partisan differences and getting things done 
for the good of the country, and I want to thank you for that.
    In recent years you have passed many pieces of important 
legislation, and this year will bring FAA reauthorization, and 
hopefully a major new infrastructure bill. Our Nation faces 
challenges that are gray, and the task ahead is very daunting.
    We are all familiar with the American Society of Civil 
Engineers estimate that our infrastructure deficit is 
approaching $4 trillion. Yet closing that gap is only the first 
step. The reality is our infrastructure is rapidly becoming 
technologically obsolete. To truly be competitive in the 21st 
century, we must invest in the transformative infrastructure of 
the future: this century's version of the transcontinental 
railroad and the National Highway System.
    Our failing infrastructure may be an obstacle and a 
challenge, but fixing it is really a powerful opportunity. 
During his campaign, President Trump spoke about $1 trillion in 
new infrastructure investment. We believe that is the right 
scale to be talking about, trillions. And the labor movement is 
ready to work with this committee to turn words into actions.
    Look at this panel before you. Business and labor may not 
agree on a number of things, but we do agree on the need for 
serious investments in America's infrastructure. In the 
aftermath of the 2016 election, there is no clearer mandate 
from the American people. And it should surprise no one that 
infrastructure is a top issue, because the American people have 
endured an infrastructure that has been underfunded and 
crumbling for decades. We want investments that create good 
jobs, that meet the real needs of our economy. Any other path 
takes us backwards, because investments in infrastructure 
create the foundation for a long-term growth.
    Building the infrastructure of the 21st century is vital to 
both our Nation's competitiveness and to the hopes of 
hardworking people to lead better and more prosperous lives. So 
the labor movement is ready to fight here in Washington and 
across our great Nation to see a transformative and inclusive 
infrastructure program enacted. We need to bring 21st-century 
technology and good jobs to the entire country, to places as 
diverse as West Baltimore and my rural hometown, Mr. Chairman, 
of Nemacolin, Pennsylvania.
    And once that investment is made, the labor movement stands 
ready with the most highly skilled and well-trained workforce 
to get the job done. One trillion dollars in new infrastructure 
investment would make a big difference to working Americans, 
and put our Nation on the path to sustainable prosperity. How 
we invest matters. It must be real investment, and it must 
create good jobs.
    And let me be clear. If we want good jobs, we have to have 
high labor standards and protections for people who build and 
maintain and operate our infrastructure.
    That is not all. We need to make sure public money is used 
to support American jobs, American resources, and American 
products.
    Finally, it is imperative that we invest at the lowest cost 
of capital to the public. Anything else simply sacrifices jobs 
to Wall Street. So, finding significant sources of funding may 
be politically difficult. But the cost of inaction is 
unacceptably high. And it is real, and it is growing. Labor has 
and will continue to consider all types of funding, including 
our traditional support of user fees to fund surface 
transportation. Done right, other resources or sources of 
revenue could help. However, solving our Nation's vast 
infrastructure needs will require major levels of public 
investment.
    I will be blunt, Mr. Chairman, we need to be bold, and we 
need to be aggressive. We need to be the America that can, not 
the America that can't. We are eager to work with the leaders 
of both parties to make this investment a reality and help cure 
some of the problems that the country faces and my colleagues 
at this front table face. We stand ready to do that, Mr. 
Chairman.
    Mr. Shuster. Thank you very much. Now we will go to 
questions. I will start, and I want to direct it at Mr. 
Willisch and Mr. MacLennan.
    I appreciate that Ms. Andringa was very specific on 
projects that affected her business. Both of you made reference 
to it, but as we are looking at the 21st-century 
infrastructure, what in your world of Cargill and BMW--what are 
the specifics? Where do we need to invest for manufacturers 
like you to be successful and to continue to grow?
    Mr. Willisch. Well, very obviously, the first thing is 
roads. That is where our cars are operated. And that includes, 
as I said before--because we are on the verge of a big change, 
as far as drive trains are concerned, as far as automated 
driving is concerned. So road markings are really crucial to 
the working of an automated car.
    The second thing is, of course, when it comes to 
infrastructure, it is the ports that really matter to us, which 
we need to both send cars into 140 countries from this country, 
or receive parts and stuff that we need to build those cars 
with. So those two things are really, really crucial to us.
    Mr. Shuster. And to your bottom line, if that port isn't 
efficient, if that port can't take those bigger ships coming in 
to Charleston, that affects your bottom line.
    Mr. Willisch. Absolutely. And just think. We just dredged 
the harbor of Charleston so it can have bigger ships that can 
go through the new Panama Canal, because all cars that we ship 
to Asia go through the Panama Canal.
    Mr. Shuster. Right.
    Mr. Willisch. So it is really vital to us.
    Mr. Shuster. And one thing is you've mentioned about the 
number of cars you export. According to what I see, you export 
more cars than General Motors.
    Mr. Willisch. Yes. Yes, we do.
    Mr. Shuster. And producing----
    Mr. Willisch. Who would have thought?
    Mr. Shuster. Yes, exactly.
    Mr. MacLennan?
    Mr. MacLennan. Mr. Chairman, yes, I mean, it is kind of 
like your kids, you don't want to pick one over the other, and 
we use highways, we use railcars, we use barges, and they are 
all interconnected. I mean, you know, you have a bit of a 
disruption in one, it flows back through the supply chain.
    I would say, relative to our business, and especially our 
focus in the rural economy, in the agricultural economy, I 
think rivers, ports, the waterways, they are environmentally 
efficient. They can carry bulk. They can only go so far, 
obviously. You know, they are limited.
    But I think, you know, rivers and ports and the access to 
the grain and the things that we move up and down, the products 
that we move up and down, we moved 97 different products on the 
river system in the last year.
    And the other statistic that I found rather staggering is 
that in the last year our Nation's locks were closed for over 
141,000 hours. So if you think about the disruption to the 
system--call it the backward ripple effect in the supply 
chain--I think I would probably focus on, for us, waterways, 
locks, the river system as being important.
    Mr. Shuster. And that has a huge impact on your bottom 
line.
    Mr. MacLennan. Significant impact on it, huge impact on our 
bottom line and the bottom line of our customers.
    Mr. Shuster. All right, which is the point of if you don't 
pay for it in the front end, you are going to pay for it on the 
back end.
    Mr. MacLennan. Exactly. Pay me now or pay me later.
    Mr. Shuster. Right, right.
    Mr. Smith, you have the broadest use of the transportation 
system. We are in the 21st century. You know, should we be 
really targeting--and if we had to--if you had to pick one or 
two that really have a huge impact on what you do in the States 
and globally, which modes would you think are the most 
efficient?
    Mr. Smith. Well, as I said in my remarks, Mr. Chairman, 
modernize the ATC system, expansion and the maintenance 
upgrades of our Interstate Highway System. There are 28 
interstate highway projects that are basically engineered and 
could move forward if the funding was there to do them.
    I don't think there is any question about the fact that 
President Eisenhower in the 1950s, launching the Interstate 
Highway System was one of the most important things that led to 
the prosperity of this country. And we are simply not expanding 
it and maintaining it to the extent that we need to.
    And, of course, I mentioned the--you don't have to do 
anything in terms of funding to approve the 33-footers. Those 
are the three things that we think would have profound and 
near-instant improvements in the Nation's infrastructure.
    Mr. Shuster. And improve your bottom line, which helps 
reduce the cost to customers, ultimately.
    Mr. Smith. Well, it improves our bottom line. And the thing 
that is just the nemesis for many parts of the country, the 
congestion continues to increase. And absent these investments 
in the infrastructure, that is not going to stop. So it is 
going to get worse and worse. And I--the--Mr. DeFazio's 
remarks, I think, were spot on. I mean we have got to pay for 
it, and get started on it.
    Mr. Shuster. Thank you very much. With that, I will yield 
to Mr. DeFazio for questions.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman--and it 
was just mentioned by Mr. Smith and others referred to it--the 
cost of congestion. So I have taken it upon myself to create an 
infrastructure cost of congestion clock, which I have posted on 
the Democratic side of the website. Hopefully it could be on 
the full committee site.
    And for reference purposes, since this President has 
promised that he wants a major infrastructure plan, is 
expressing some frustration that it doesn't seem to be at the 
top of the agenda, I want to reinforce that. And this clock 
will recognize, on a daily basis, the cost of congestion to the 
American economy.
    And, as you can see, it is running right now. And this is 
since the day the President was inaugurated. So I share the 
President's frustration, and hope that this committee can raise 
these issues to the top of the agenda, or the 100-day agenda. 
This reflects the cost, both to individuals and to business, in 
terms of congestion and delay. And, just for average people, it 
is 84 minutes stuck in traffic since the day of inauguration 
because of undue congestion.
    With that, let me go back to my proposal. Is there anybody 
on the panel--and now, Mr. Trumka, you represent millions of 
individuals, so you can speak for them. And all the rest of you 
are in business, and use fair amounts of fuel directly or 
indirectly in moving your goods or in moving goods. Does 
anybody here think that a one-half of 1 percent increase in the 
cost of diesel would cause an undue disruption to the American 
economy, or a taxpayer revolt that would threaten people's 
political careers? Because that is what my plan would do. It 
would be about one-half of 1 percent, if we index the per-year 
increase.
    So, OK, that is great. And I think, when you look at that 
number, it looks like a pretty darn good investment.
    I would like to go back also to the harbor issue. We have--
and probably, even Ms. Andringa, you probably import or export 
goods, too--so I think we have four people here directly 
involved in the import or export of goods, and some frustration 
about that.
    If you are importing goods, you are paying the tax. And I 
am just wondering, what do you think of the proposal that we 
should actually take the taxes that were collected to maintain 
our harbors and do away with this artifice of putting them in a 
theoretical bank account at the Treasury, and actually spend 
them to deepen and improve our harbors. Anybody got any 
reflection on that?
    Mr. MacLennan. I will take the bait.
    Mr. DeFazio. Yes.
    [Laughter.]
    Mr. MacLennan. So you said it effectively in your opening 
remarks, Congressman. I mean we have got this money that has 
been collected. We have paid it, it is there, and we need it. 
So, obviously, you want to get good, effective, scalable 
projects. But, you know, given what is--I mean, for example, 
the expansion of the Panama Canal, we are seeing more traffic 
on our riverways. I talked a few moments ago about the need for 
more efficient river traffic. It is environmentally efficient. 
And you can get over 50,000 bushels on 1 barge, and you can get 
1,000 bushels on a regular-sized truck.
    So, I would support your proposal to spend the money, 
invest the money that has been collected from the users of the 
system.
    Mr. DeFazio. I would reflect that Congress did--although 
most don't know it--increase the inland diesel waterway user 
fee, diesel tax, in a yearend budget deal 2 years ago. Kind of 
had to hide it. We had advocated for that, but were shut down 
as we went to the floor. But later it got snuck into the 
yearend budget deal. It made a lot of sense. And this--in this 
case, we don't have to increase it, we just have to spend the 
money as it comes in, and spend the money that has been 
accumulated.
    Mr. Smith, you referenced 20 projects. Were those major 
choke points that you said were already designed?
    Mr. Smith. Yes, sir. I have a list of them right here: 
North-South corridor, Missouri, Arkansas, Louisiana, U.S. Route 
220, Pennsylvania, New York, Raleigh, Norfolk corridor, North 
Carolina and Virginia, I-69 corridor, U.S. Route 59. They are 
all right there. The DOT, if you put a funding mechanism, you 
can----
    Mr. DeFazio. What are the----
    Mr. Smith [continuing]. Get started on them right away.
    Mr. DeFazio. What do they add up to? Did you add them up, 
by any chance, or----
    Mr. Smith. In terms of money?
    Mr. DeFazio. Yes, cost.
    Mr. Smith. I don't have the----
    Mr. DeFazio. OK.
    Mr. Smith [continuing]. Dollars invested here. But just the 
route extensions that would improve the national productivity, 
reduce congestion.
    Mr. DeFazio. Sure, thank you. OK. And, Mr. Trumka, some 
people question, say, ``Well, gee, we really don't have the 
people to support and do the work, if we make these major 
investments. There just aren't enough workers out there.'' I 
mean, look, the unemployment rate, theoretically, is down to 4 
percent.
    Could you reflect on that, whether or not there is a ready 
and trained and available workforce if we did a major 
infrastructure push?
    Mr. Trumka. I would be happy to. According to the latest--
the latest--BLS reports, there are still 670,000 construction 
workers that are out of business. That doesn't include 
discouraged workers who have stopped looking for the jobs. It 
also doesn't include things like design engineering, operation, 
maintenance, and warehousing, which are in a different 
category. All of those are available, as well.
    This is the best-known secret in the United States: other 
than the military, the U.S. labor movement trains more people 
every year than any other institution out there. No university 
does it better. We have highly skilled people. We are putting 
people through those apprenticeship programs on a regular 
basis. We are reaching in to disadvantaged communities, rural 
communities, with classes that will help them qualify, get 
through our entrance exam, and qualify as a career. So there is 
an ample supply of skilled workers ready, anxious, and willing 
to go to work.
    Mr. DeFazio. Excellent, thank you. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. With that, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman. Growing up in the 
road construction business, I learned that private industry 
needs long-term planning and dedicated funding sources in order 
to invest in our Nation's infrastructure. It is simply a fact 
that no employer will make plans to hire more workers or 
purchase $1 million pieces of equipment without long-term 
security in Government contracts. And no State or local 
government, being a former mayor, can make long-term plans 
without certainty in Federal transportation spending. Do you 
all agree?
    That being said, can any of you speak to how uncertainty 
and short-term fixes to the Highway Trust Fund have impacted 
your ability to move goods and services around the country? 
Anyone who wants to take a stab.
    Mr. Smith?
    Mr. Smith. Well, as has been brought up several times, the 
population and the commerce of the United States has gone up at 
a far, far faster rate than the expansion of the interstate--
the Federal highway system, which is the backbone of our 
Nation's logistics system. Seventy percent of every pound that 
is moved in the Nation's commerce is moved on the highways. 
That is not to say other modes aren't equally important, but we 
have allowed the highway system to atrophy for lack of 
maintenance. And, equally important, we have not added to it. 
And that was the point of me referencing these 20 projects that 
are out there that are basically designed.
    So, you can't expect national productivity and economic 
well-being to improve unless you address these infrastructure 
issues. And in my mind it is just a matter of paying for it. I 
mean the system is there.
    Mr. Barletta. You know, spending on infrastructure will 
grow the economy more than anything that I know. When there is 
a lot of infrastructure work, people will make good money. 
There is no question about that. When they make good money, you 
know what they do? They spend it. They spend it right in our 
local economies, which helps everyone, not just the 
construction workers, not just the construction companies, not 
just the manufacturer of equipment. It helps the waitresses and 
waiters and little restaurants and diners. It helps everywhere.
    So, it is an investment. And I said it will grow the 
economy more. So spending on infrastructure is not the same as 
putting money into another program where you are just providing 
services. There is a return on that.
    Mr. Smith. And I might just add I think my numbers are 
correct. We are now at levels of Federal infrastructure 
spending that have not been seen since 1948 as a percentage of 
GDP. So it is going to get worse and worse, unless the Congress 
decides to fund these projects.
    And, as I mentioned, the industry that uses these systems, 
the surface transportation business, has been wholly in support 
of increasing or adjusting the Federal gasoline and diesel 
taxes for years, and replacing them with some sort of new user 
fee system because of natural gas and electric vehicles that 
will use them in the future.
    Mr. Barletta. And I agree, the American people are OK 
paying it as long as they know where it is going, and we make 
sure that every penny that we take from them is used to the 
best that we could.
    Pennsylvania is home to over 120,000 miles of State and 
local highways, many of them which cross through my district. I 
know for a fact of economic development projects that would 
happen if there was access to our transportation system. There 
is no question.
    Can you please explain what role highway accessibility 
plays in determining where you locate your facilities and how 
such accessibility affects your ability to efficiently get your 
goods to the customers?
    Mr. MacLennan. I will start, Representative, and we employ 
about 900 people in your district. We have a chocolate business 
in Lititz, and we also have a beef business. So if you think 
about the traffic that uses the local highways, in terms of 
delivering raw materials, taking the developed product--the 
chocolate, the beef--and moving it on, it is a significant 
consideration. Is it the only one? No.
    And going back to your first comment about do you need 
absolute certainty, no. But it is a world of volatility and 
uncertainty and complexity. It is a significant variable. So I 
would say that we will invest, you know, despite the 
uncertainty, but it certainly would help and encourage us in 
specific locations, knowing there is going to be expanded rail, 
waterway, or highway access. It would attract our capital to 
new investment. Thank you.
    Mr. Barletta. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Barletta.
    Ms. Norton?
    Ms. Norton. May I thank Chairman Shuster for opening this 
year by having--I think he has done this before--this across-
the-board comprehensive hearing on our Nation's infrastructure. 
And I applaud what this committee has done, very bipartisan 
committee. Not only the WRDA bill, the FAST Act, even when the 
rest of the Congress has not been moving as rapidly in its own 
mission.
    The FAST Act, of course, is the latest version, passed in 
2015. And I think the committee deserves the compliments of the 
committee for passing the first comprehensive highway 
transportation bill in a decade. But I have to tell you that it 
broke my heart that, in order to get even a small bump--that is 
to say an increase, we had to reduce the bill from a 6-year 
bill to a 5-year bill. And, of course, the bill had to contain 
a number of gimmicks, as well. And that is even given the best 
efforts--and I must tell you, extraordinary bipartisan 
efforts--and there was great agreement on this bill.
    The present strategy for our infrastructure is delay. That 
strategy is prohibitively expensive. We are not even doing 
maintenance. So what it means is that billions of dollars that 
those who had the guts before us have invested in our 
transportation infrastructure, which made this country what it 
is today, that that is crumbling, as well.
    So here is something that I championed, and that was done 
with great bipartisan support in the FAST Act. And it is such a 
small amount, it makes me blush. But it can--it is a provision 
that provides $20 million in grants to the States to themselves 
come up with alternative sources of funds for the Highway Trust 
Fund. As you know, the Highway Trust Fund--and I ought to, I 
suppose, give this to Mr. Smith--as you know, the Highway Trust 
Fund has just been stuck now, and we are doing nothing to 
replenish it.
    Mr. Smith, the reason I thought this was a question for you 
is I noted in your testimony something that surprised me. And I 
thought it was important to note that FedEx supports a broad 
mix of revenue sources in order to avoid overreliance--here I 
am quoting you--on a single option. I take it that single 
option is the one we have been using, which, of course, will 
run out even before this bill runs out, the gas tax.
    In light of the fact that we are asking the States to give 
us ideas about alternative sources, can I ask you, Mr. Smith, 
why you think the gas tax alone will not be sufficient? And 
what kind of alternative sources do you think should be put on 
the table so that, even if we were able to get the Highway 
Trust Fund with the gas tax, we would have additional sources 
to get going? Any ideas you have would be much appreciated.
    Mr. Smith. Yes. Well, let me give you three, but let me 
address, again, the Highway Trust Fund. As I have said a couple 
of times now, we at FedEx, and virtually every entity in the 
commercial transportation surface transportation business that 
I know of, supports an increase in gasoline and diesel taxes 
indexed from the cap that was placed on them in 1994. So, 
having said that, here are three issues.
    First, the transportation system is moving away from 
complete reliance on internal combustion engines. There are 
increasing uses of electric and hybrid electric vehicles. And 
in the heavy freight area--I was in Oklahoma recently at the 
ribbon-cutting for our new compressed natural gas facility for 
FedEx Freight. So those two technologies are not captured by 
today's gasoline and diesel system. There needs to be 
something, a vehicle mileage tax or some other mechanism to 
fund use of the Federal highway system by those types of 
vehicles.
    Second, we are strongly in favor of a revised United States 
corporate tax code, because we are not competitive. I think Mr. 
Trumka will agree that blue-collar folks need equipment and 
investment so they can have a high income level. Bulldozers, 
trucks, planes, whatever the case may be. So we are not 
competitive, and we are particularly not competitive with our 
global taxation system.
    There is only one other industrialized country in the 
world, Chile, that has a global tax system. So if we went 
tomorrow to a territorial system with some level of taxation to 
prevent gaming--8 percent, or whatever the case may be--there 
would be hundreds of billions of dollars that could come back 
in this country tomorrow that could provide funding for 
infrastructure.
    And the last idea is congestion pricing. I mean we all know 
today when you go through a bridge or a tunnel in New York, or 
wherever, you don't have to go up and pay somebody taking the 
money. We have a little RFID tag there that says you are paid 
going into Manhattan. That type of technology is cheap, it is 
available. It has been successfully tested down in southern 
Florida in order to reduce congestion by putting congestion 
pricing there, giving you incentives to use high-occupancy 
lanes, or to operate in noncongestion periods of time. That 
could be another source of revenue. So those are three.
    Mr. Shuster. The gentlelady's time has expired.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Shuster. With that, Mr. Gibbs is recognized.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. MacLennan, in your testimony you talked about how 
important the locks are in our river system, which I agree with 
you 150 percent. Are you aware--well, let me back up a second.
    We are able to get the Olmsted Lock and Dam project going 
forward. Got kind of off a different funding source that frees 
up money for the Lower Mon, the Kentucky and the Chick locks. 
And you might not be aware, but I am sending a letter today to 
President Trump, along with about two dozen of my colleagues, 
to make sure that they are aware that, in the current funding 
for the Army Corps, the Olmsted is taken care of, but the three 
locks, the three priorities--Lower Mon, Kentucky, and Chick--
are not.
    And we want to make sure they get the funding here in the 
next few months. Because if they don't, they will be possibly 
shut down and delayed, and the cost will be exponential, and 
going up. So I just wanted to make you aware of that, because I 
know you, especially at Cargill, understand the importance of 
our inland waterway system. So, you know, if you have a chance 
to weigh in with the Trump administration on the importance of 
that funding, I would appreciate that.
    Mr. MacLennan. Yes, thanks for making me aware.
    Mr. Gibbs. I just wanted to mention that.
    Ms. Andringa, in your testimony you talk about, for 
manufacturing too, our water infrastructure--be it our drinking 
water, the aging pipes, and all that--and you talked about 
Representative Duncan's private activity bonds lifting the cap. 
Are you aware that I have a bill that is H.R. 465, dealing with 
integrated planning with the EPA that will help give our local 
municipalities the flexibility in their planning and their 
permits to get to their goals they need to get to but maybe 
can't do it in the 5-year permitting and have a goal which will 
help get the projects done, but it would also be more efficient 
and not--the ratepayers that can't pay that.
    So I just wanted to bring that to your attention, that 
there are some other initiatives going on. I don't know if you 
are aware of it, the EPA's integrated planning, which they say 
they support, but they haven't done a lot to get it going, so 
we are going to try to codify it in this legislation.
    Ms. Andringa. Well, thank you. And thank you for making me 
aware of that. You know, we have talked about a lot of 
different kinds of infrastructure here this morning, and, 
really, they are all vitally important to our economic well-
being, and certainly to us, as industry, manufacturers, and 
labor.
    And the NAM did a comprehensive report, really, on building 
to win. It includes really good data about things like water, 
and waste water is another one that is important, as well as 
the ports. Light rail, we haven't talked a whole lot about 
that, different transit systems. But, of course, roads and 
bridges and ports are vitally important, and probably the 
biggest numbers that we need.
    But I would also like to say that there are quite a few 
ideas in here about ways to fund this, and Congressman DeFazio, 
it is some of the same things you mentioned earlier.
    And the other thing I just want to say is that, as 
manufacturers--and I think you have heard it here, and I feel 
we are all preaching to the choir in this room, but we as 
manufacturers have to invest in our business. My dad was 
extremely conservative financially. We basically didn't have 
debt, and always tried to finance our own growth. But the one 
thing that he always said is we have to keep updating our 
equipment in the plants. Our welders, our machining centers, 
the tools that our employees use.
    Mr. Gibbs. No, I--yes. I fully understand that.
    Ms. Andringa. Yes.
    Mr. Gibbs. I just wanted to make it clear that----
    Ms. Andringa. No, anyway, I think what the point----
    Mr. Gibbs. We need funding, but I also want to make it 
clear there are ways we can be more efficient in doing things. 
And the integrated planning bill which I introduced is part of 
that----
    Ms. Andringa. Yes, yes.
    Mr. Gibbs [continuing]. At least on the waste water side of 
things. That is one of----
    Ms. Andringa. And again, I think manufacturers and those of 
us here are willing to invest.
    Mr. Gibbs. Yes, that is great.
    Mr. Willisch--did I say it right? In your testimony you 
mentioned making significant investments in mobility 
technologies, and automated driving, and autonomous vehicles. I 
recently learned that these investments--during discussions we 
have in Ohio, we have the Transportation Research Center 
located in central Ohio that provides for automotive testing 
services, and planning to build a winter indoor testing 
facility. So they have got thousands of acres there now, and a 
lot going on.
    I would like to hear any thoughts you might have on how 
proving grounds and testing centers play a role in developing 
these new technologies BMW would be interested in.
    Mr. Willisch. Well, first of all, I would like to say that, 
of course, the safety of people driving our vehicles is 
paramount to us. So we would not--never go ahead and test cars 
that are not fully developed with actual consumers.
    So, having said that, we are and will do a whole lot of 
testing before we have any automated vehicle available to the 
public. So that might be a thought, as well, yes. We have to 
test, and we have to be quick, because that is going to be a 
technology that is going to be----
    Mr. Gibbs. I just want----
    Mr. Willisch [continuing]. Around in the next 3 or 4 years.
    Mr. Gibbs [continuing]. To highlight that this testing 
ground we have in Ohio is state of the art, and doing it--an 
inside test facility would be beneficial. I want to make sure 
you are aware of that facility.
    Mr. Willisch. Thank you, yes.
    Mr. Gibbs. Thank you. And my time is up. I yield back.
    Mr. Shuster. Ms. Johnson?
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and thank you very much for holding this hearing, you and the 
ranking member.
    I know that every member of this panel is aware that we are 
in desperate need of making additional investments in order to 
build up and maintain our crumbling highways and railways and 
waterways and airport infrastructure. At the same time, we are 
also dealing with a great deal of technologies, and we are 
dealing also with nonresilience in materials that we use, which 
causes us to have to do some projects over and over again.
    I still await the President's package coming over with a 
lot of enthusiasm, but I am very concerned about all of you 
commenting on how the industry is experiencing changes. One of 
the things that struck me, I went to Germany to the BMW plant 
last year, the year before, with the President. And it is a 
huge plant. It was larger than this complex. But I didn't see 
10 people working there. They were all robots. And I wonder. 
What is that going to have to do with the workforce in this 
country, and how do we handle it? And have you had any of those 
thoughts?
    Mr. Willisch. But we still have 70,000 people working in 
that plant you were referring to, so that is--it is not totally 
empty.
    Ms. Johnson of Texas. We walked almost the whole day 
looking, and I saw about 10 in the whole plant. But the number 
is not nearly as significant as the process. And looking toward 
the future.
    People think of infrastructure producing a lot of jobs. And 
in many industries, that is not necessarily the case. And I 
wonder how it is going to impact your industries as we look at 
infrastructure.
    Yes, Mr. Smith?
    Mr. Smith. Well, I have to tell you I am optimistic about 
this. As everybody in this room knows, with the beginning of 
the last century about 50 percent of the population in America 
was in agriculture. Now there is less than 1.5 percent of 
people in this country working in agriculture, and we are 
producing more agricultural products than we can consume, and 
it is one of our biggest exports. About 1 in 3 acres in the 
United States is produced for export.
    So, there are people in the container shipyards handling 
those exports. There are people in the railroads handling them, 
and so forth. So I am very confident, as things automate in 
other sectors of the economy, there will be plenty of good-
paying jobs, as long as our educational system keeps up with 
it. And in Tennessee, as Congressman Cohen will tell you, we 
just passed a law, as I understand it, where any student in the 
State can go to junior college for free. And that will be the 
bedrock of people learning new skills to operate in these 
different environments.
    I have been to BMW in Germany, and where all those people 
that Ludwig is talking about, they are not on the factory 
floor, but they are up in the offices, doing design and 
computers, and designing the robots, and things of that nature. 
So, as long as we have a climate where business wants to invest 
in the United States, and an educational system that supports 
people being trained for these new technologies, I am very 
confident that things will be OK.
    In our industry, for instance, I don't think we are going 
to go to fully autonomous trucks, but I do think we will go to 
trucks where the truck driver becomes much more productive. 
They will have an auto-pilot. It will be safer, fewer 
accidents. They may have a robot truck following it that allows 
them to operate. And I think that is the trajectory that we 
will go on, as long as we incent investment, and we have the 
proper educational systems to support it.
    Mr. Shuster. The gentlelady's time is expired. Before we 
go----
    Ms. Johnson of Texas. Thank you. I was just getting 
started.
    Mr. Shuster [continuing]. Mr. Cohen has a----
    Mr. Cohen. Thank you. Since my name was mentioned, I want 
to thank Mr. Smith for the reference to junior college. All of 
that money is from the State lottery that you helped me, after 
18 years of effort, push across the line to fund that. Thank 
you, and thank you, Tennessee, for the State lottery.
    Mr. Shuster. Thanks for the commercial.
    [Laughter.]
    Mr. Shuster. Mr. Webster is recognized.
    Mr. Webster. Thank you, Mr. Chair. I have a question.
    Mr. Smith, you brought up Florida. I am from Florida. And 
the toll facilities down in Miami-Dade up to Fort Lauderdale, 
which were just on the interstate system, but there are several 
local expressway authorities that charge tolls on their roads, 
all the roads they have built. Then we have the Florida 
Turnpike Enterprise, which goes through the center of our 
State. And I am sure your trucks use those.
    Do you think that--especially the ones with the flexible 
congestion-type tolling, where it goes up and down, which is a 
good Republican idea--you pay for what you get--do you think 
the Federal Government should get involved and tell us--we have 
local toll roads, we have State-run toll roads. Do you think 
they should get in that? Is that a way to enhance the revenue?
    Mr. Smith. Yes. As I was saying to Ms. Norton, as we move 
to more natural gas-heavy trucks and more electric and hybrid 
vehicles on the highway, you are not going to have gasoline or 
diesel taxes to fund the Federal highway system. So the most 
productive system, in our mind, is some sort of RFID system 
that allows you to collect a user fee for those types of 
vehicles to use the Federal system.
    Once you have got that system in place, which is very 
simple with today's technology--that is why I used the example 
of going through the tunnels in New York, nobody even pays any 
attention to it any more--so it can also be used for congestion 
pricing and to incent people to have more occupants in a 
vehicle. So you can get a lot of productivity out of our 
transportation system.
    And I might point out, Congressman, that we have been 
operating 33-foot twin trailers in Florida for years very 
productively. And our drivers tell us they are safer. And that 
reduces traffic on your highways, both Federal and the State-
funded divided highways you have down there.
    Mr. Webster. Yes. I remember in olden days, when I was in 
the State legislature, we approved that and it was good.
    I was just saying do you think that it would best be done 
by the Federal Government to use that, as opposed to State or 
local? I mean State and local do things that are local. They 
try to improve their--but in the end, how about if there were 
dedicated freight traffic roads that were paid for through 
tolls? Is that something you would be in favor of?
    Mr. Smith. Absolutely. It would take a lot of trucks off 
the road and--but having said that, I think you can get an 
awful lot of productivity on our existing expanded and improved 
highway system, doing the things that I just mentioned to you. 
You don't have to have dedicated truck lanes, but that would 
certainly be something that could be looked at.
    As to State versus Federal, I don't think it makes that 
much difference, provided there is a dominant design, there is 
a common technology standard that allows the VMT to be 
administered the same in Florida as it is in California, or 
Connecticut, or what have you. That is the main thing, right 
there.
    Mr. Webster. OK. Thank you so much. Yield back.
    Mr. Shuster. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Smith, first off, on ATC and ATC reform, some folks 
have said that to privatize the system, the reason to do that 
is because airlines aren't receiving enough NextGen benefits. 
But I know in Memphis there has been some investment in 
NextGen, and FedEx, I believe, has directly benefitted from 
that investment in NextGen. Could you just cover that for us?
    Mr. Smith. Sure. We were the prototype location for a 
NextGen application which allowed us to narrow the separation 
between landing aircraft and aircraft taking off. It has been a 
spectacular success. It has improved the productivity of the 
FedEx operation there, saved tens of millions of gallons of 
fuel, allowed us to serve our customers more efficiently, and 
keep on time.
    A NextGen application nationwide, but particularly in the 
Northeast, which is the linchpin of the whole ATC system, 
because of the population density and the proximity of major 
airports one to another, there is the opportunity to vastly 
improve the productivity of the Nation's air traffic control 
system with the types of technologies that we demonstrated and 
prototyped at our major hub in Memphis, Tennessee.
    And I might add something here that is a little-known fact. 
In terms of the number of customs entries--not tonnage, because 
sea freight, obviously, carries more tonnage than air cargo--
the largest port, in terms of customs entries in the United 
States of America is Memphis, Tennessee, where our super-hub 
is.
    Mr. Larsen. Yes.
    Mr. Smith. And the productivity of that hub, and the 
commerce of the United States because of those improvements in 
ATC pioneered by FedEx with the FAA in Memphis has vastly 
improved the productivity not just in Memphis, but the entire 
national economy.
    Mr. Larsen. Thanks. Mr. Chairman, you didn't reset my 
clock. I think there was a minute 30 and----
    Mr. Shuster. Mr. Larsen, I just looked and I said, ``That 
was 5 minutes?''
    Mr. Larsen. Yes, I know. It seems like a long time 
speaking.
    Mr. Shuster. You put me to sleep.
    Mr. Larsen. Yes, yes.
    Mr. Shuster. No, I don't think his clock was----
    Mr. Larsen. All right. So I got about 3 minutes or so? Yes.
    Mr. Shuster. Three minutes?
    Mr. Larsen. Yes, OK, great, thanks. I noticed. Thanks.
    Mr. Trumka, in your written testimony you discussed this, 
but you didn't really cover it in your oral testimony. Can you 
talk about the--sort of the marriage of workforce development 
and apprenticeships with infrastructure investment, and maybe a 
lesson for us as we approach infrastructure investment?
    Mr. Trumka. We view--we believe that we have the best 
skilled workforce in the world. We train more people every 
year. We bring people out of the neighborhood to be able to 
create a very, very, very effective workforce.
    Infrastructure, we think, is really a job-creator for this 
country. How it is financed will have an effect on how 
important or how widespread the job creation is. If a Buy 
America provision is expanded, and we think it should, it will 
have a greater impact on the number of jobs that are created. 
If more waivers are created, then taxpayers' dollars will be 
used to drive down wages and encourage outsourcing.
    That is why, on all the types of funding that we look at--
private partnerships, for instance, have a limited 
applicability here, because they need a revenue source. So they 
won't apply to repair and maintenance, they won't do much in 
the rural areas. And if they do come about in those limited 
areas, we would like to see--we would need to see 13(c) 
protection, Davis-Bacon protection, domestic preferences, 
protection for rail and public-sector workers, so that those 
public dollars aren't used to drive down wages and actually 
suppress the economy and dampen the economy, but actually grow 
it.
    So how you do it is important. We are full-scale behind 
infrastructure, because, as every witness here has said, our 
country depends on it. Our competitiveness depends on it. And 
we are anxious to get started and put people back to work.
    Mr. Larsen. Thanks. Mr. Willisch, in talking about road 
sensors and markings and such, you know, when we talk about 
building roads, bridges, highways, we don't talk about painting 
lines on the road, usually. But what you are essentially 
saying, I guess, is that we need to be--for the--to support 
automated vehicles, we need to be rethinking a little bit the 
definition of infrastructure to support autonomous vehicles. Is 
that true?
    And then, does BMW have something more complete that you 
can offer the committee? Not in your answer, but just maybe for 
us to read later.
    Mr. Willisch. It is not really that complicated. We just 
need continuous marking, and that should be there, anyway. So 
it is not that we have to have a special thing for automated 
driving, it is just, you know, that the marking is continuing 
on the roadside and in the middle.
    Mr. Larsen. Yes.
    Mr. Willisch. So it is not a really specific BMW----
    Mr. Larsen. Just that simple?
    Mr. Willisch. Yes, it really is that simple.
    Mr. Larsen. OK. All right. Thank you.
    Mr. Shuster. I thank the gentleman. With that, Mr. Massie 
is recognized for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman. We just received some 
great news yesterday in Kentucky, but it is going to present 
another transportation infrastructure challenge to us. The 
Amazon Prime Air announced they are going to put their hub at 
the CVG Airport. And I would just say to Mr. Smith we have got 
UPS and we have got DHL, as well, in Kentucky. You are welcome 
to come over any time. It is a challenge we would love to face.
    But the challenge that it presents is how do you use the 
existing infrastructure, or how do you upgrade it, and how do 
you pay for it so that you can accommodate growth like that? 
You know, with UPS, DHL, and now Amazon Prime Air hub there, 
all feeding into I-71 and I-75, which are interstates that 
haven't changed a lot--the bridge they cross, the Brent Spence 
Bridge, was built 50 years ago, before any of that logistics 
infrastructure for North America was moved to Kentucky. And so 
now we are dealing with this. And I would say there is not a 
person here today, you know, testifying that isn't affected by 
that corridor, the I-71/I-75 corridor.
    But the real challenge, to Mr. DeFazio's point, is how do 
you pay for it. Because we know in northern Kentucky and 
southern Ohio we need a bridge. We are debating about where the 
next bridge goes. The bridge that is there, thankfully, was 
built with American engineers and American labor, and American 
steel. So it is--the reason that it is obsolete is it just 
can't carry the traffic that is there. So we need another 
bridge. We are having a robust debate about where that bridge 
should go, and how to pay for it.
    Mr. DeFazio had some good ideas, I think. And it scares me 
every time I agree with somebody on the other side of the 
aisle. You know, I like that he is in favor of user taxes, 
instead of taxes, per se--user fees, instead of taxes. But 
before I go back to my red district and ask them to index the--
you know, the fuel tax to inflation and cost, I need to 
convince them it is a real user fee, and that the money is not 
being leaked out for other things that--where there are users 
who aren't paying a fee. For instance, bike paths, 
beautification, mass transit.
    If we could convince them that all the incremental money 
that is going into that fund is actually going to the 
infrastructure for the users that are paying for it, I think it 
would be a much easier sell. So I would just--you came a little 
ways toward me, I am coming a little ways toward you.
    And also, on the passenger facility charge, I think you are 
on to something there. There is two ways airports are funded. 
There is a tax that comes to the Federal Government, and then 
they ask mother may I, and we give them--we dole them back out 
the money. But there is another way, with the passenger 
facility charge, where they have local control and decide how 
to spend that money. So I would go you one better and say why 
don't we just get rid of the passenger facility charge cap, and 
let the airports decide. And then they wouldn't need to come to 
the Federal Government and ask for their taxes back.
    So, what do you think of that? If I yield to the ranking 
member----
    Mr. DeFazio. I have just advocated a small increase. I 
think the----
    Mr. Massie. Well, I don't want to increase. I want to take 
the cap off.
    Mr. DeFazio. That would be a market-based approach, in a 
sense. But I think I can hear the screams coming from downtown, 
from the--I mean now you are--you know, we are not just talking 
a couple of bucks. I mean, who knows? I mean it might----
    Mr. Massie. Well, I----
    Mr. DeFazio [continuing]. The cost of putting your bag in 
the overhead.
    Mr. Massie. Let's test the free market. But it is--I do--I 
did want to point out one of the benefits of serving on 
multiple committees is you see there might be solutions to 
problems that aren't all within one committee.
    I serve on the Oversight and Government Reform Committee, 
and I found out there we spent $100 billion building 
Afghanistan. Not on military funding, rebuilding Afghanistan. 
And the inspector general tells us the infrastructure we are 
building there is crumbling the day it is built. A lot of it, 
not all of it. And it is $100 billion. We are on the hook for 
$10 billion more over there. I would love to bring that over 
here and spend it on projects that are going to benefit users 
in America.
    Finally, I have got a few seconds here. I want to ask--Mr. 
Smith mentioned the regulation on the length of the trailers. 
Are there other regulations, Mr. Smith, that we could lift that 
would let you use the existing infrastructure more effectively?
    Mr. Smith. Well, I am sure there are some out there, but 
none that compare with the instant improvement and productivity 
of the 33-foot twin trailers.
    Mr. Massie. Mr. Willisch, do you have some regulations you 
would like to see lifted?
    Mr. Willisch. Not really, what we would say--there is one 
specific one, no.
    Mr. Massie. Just all of them?
    Mr. Willisch. All of them, but what we need is consistent, 
we need rules and regulations throughout the Nation. This is 
what we need, and we need to have that----
    Mr. Massie. Consistent.
    Mr. Willisch [continuing]. Consistently, that we have a 
consistent planning base.
    Mr. Massie. Ms. Andringa?
    Ms. Andringa. Yes. On regulations I would say I think it is 
just important to know that for manufacturers, we have just had 
a lot of regulations coming our way. And just to be able to 
keep up with compliance--again, for mid-sized companies, small 
companies, it is really hard to have the experts. Sometimes in 
your business you have to go find those people so you can make 
sure that you keep up with all the regulations.
    We bought a software system a couple of years ago just to 
track all the new regulations that were happening every day. 
And we would see 100 to 200 new regulations every day. Now, 
maybe only 5 to 10 of those really applied to us, but it still 
takes time to filter through them and to understand them.
    And I know manufacturers did a comprehensive study on 
compliance and the cost of compliance, and some of those 
definitely would connect with our infrastructure. And it is 
anywhere from, depending on the size of your company, from 
$10,000 to $30,000 per employee per year to comply with 
regulations.
    So, I would say we just need to make sure that the 
regulations we have are consistent, and I think across State 
lines, but that we also make it possible for our companies to 
be able to comply with regulations.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Massie.
    Mr. Capuano?
    Mr. Capuano. Thank you, Mr. Chairman. I would just like to 
go on record to say that whenever Mr. Massie agrees with us, we 
get nervous, too.
    [Laughter.]
    Mr. Capuano. To the panel, when everything is said and 
done, everybody agrees we need to do something. We all know 
that. That is kind of like the easy, lowest hanging fruit there 
is. But there is a minor little point. You all run businesses 
or large organizations. Somebody has got to pay for this.
    And the question I have, really--and, Mr. Smith, to my 
knowledge--I have been listening to most of everything that is 
said, not everything--I think you are the only one who 
suggested a way, other than spending the Harbor Maintenance 
Fund, which I think is kind of ridiculous that we have to make 
that argument, the tax has been paid and sitting there. But, 
absent that, I am of the impression that everybody on the panel 
at least implied that you believe we need to put more money 
into the system.
    Now, we are talking about highways, but I would--I want to 
be real clear. I believe in--harbors are critically important, 
rail is critically important, and transit is critically 
important. Because, even if you are not moving goods through 
transit, your people are moving through transit, especially in 
the urban areas. All that being said, we need more money.
    Mr. Smith, you have made some suggestions, and I want to be 
real clear. Thus far, the smoke signals coming out of the new 
administration is somehow we are going to do this with just 
public-private partnerships. No new money.
    Now, I cochaired a group looking at public-private 
partnerships with Mr. Duncan last year, and we came to the 
unanimous, bipartisan conclusion that they have a role, and 
they are good, but they are no better than maybe--maybe--10 
percent of our needs.
    So my question for you is, first of all, do you agree that 
public-private partnerships can't do it all, can't even do most 
of it? And, if so, I would like to hear your suggestions--Mr. 
Smith, you already answered this part--your suggestions of 
where you think we should get the money. Because I will tell 
you that--I think it was about 3 years ago we had the president 
of the Chamber of Commerce, the U.S. Chamber of Commerce, sit 
in that chair and tell us the Chamber of Commerce supported an 
increase in the gas tax. So, for me, that was my first time 
ever agreeing with the U.S. Chamber of Commerce. And--but at 
the same time, I would love to find a way, if--I am open to any 
way to fund this.
    And, Mr. Smith, do you think the public-private 
partnerships can do all of this?
    Mr. Smith. No. I think it is something that could do some 
things, but what needs to happen is to increase the gasoline 
and diesel taxes, which haven't been increased--the Federal 
ones, that haven't been increased since----
    Mr. Capuano. Have you told this to the new administration?
    Mr. Smith. Yes, of course.
    Mr. Capuano. Have you told this to my friends on the other 
side?
    Mr. Smith. Well, I hope they are listening right now, so--
--
    Mr. Capuano. You just did.
    [Laughter.]
    Mr. Capuano. Wake up, guys, wake up.
    Mr. Smith. But the answer to the question, yes, I told it 
to the----
    Mr. Capuano. Thank you.
    Mr. Smith [continuing]. Administration as late as 
yesterday.
    Mr. Capuano. Beautiful.
    Mr. Smith. And then, secondarily, I think we should move to 
some sort of RFID-based vehicle mileage----
    Mr. Capuano. You have no arguments with me on any of these. 
I am completely open.
    Mr. MacLennan, do you think the public-private partnerships 
can do the whole thing? And if not----
    Mr. MacLennan. No, I don't. So I think----
    Mr. Capuano. Where do you think we should get the money?
    Mr. MacLennan. So I am not the tax policy expert. I mean 
that is the crux of the issue, isn't it? It is a big spend. We 
have talked about the benefits that it brings to the economy, 
to jobs. So it has got to be some combination of private-public 
partnerships, effective tax policy.
    And also we would say that it has got to be balanced. But 
the users of the systems, whether it is rivers, roads, 
railroads, got to be--you have got to have some skin in the 
game. So it has got to be multiple constituents.
    Mr. Capuano. Have you expressed that to the administration? 
Have they asked?
    Mr. MacLennan. I have not been invited to----
    Mr. Capuano. Well, neither have I, so, you know----
    [Laughter.]
    Mr. MacLennan. I think you will get invited before I will.
    Mr. Capuano. I wouldn't count on that.
    [Laughter.]
    Mr. Capuano. Mr. Willisch, what about you? Do you think the 
P3s can do it all, or do you think that we need to increase 
revenues?
    Mr. Willisch. Experience tells you no, you cannot do that. 
But otherwise, I can tell you a lot about developing cars or 
producing cars, or distributing cars. But I am not a tax 
expert, either, so I would limit my contribution here to those 
three fields, rather than talking about----
    Mr. Capuano. That is fair enough.
    Ms. Andringa, what do you think?
    Ms. Andringa. Yes, thank you. I concur with my colleagues 
that it has to be an all-of-the-above. That is what we talk 
about, as manufacturers. We are going to need the gas tax, user 
fees. We are going to need public-private partnerships, maybe 
bonding, infrastructure bank.
    And the thing that I think we just want to remember is the 
stimulus package that happened in 2009. I think a lot of us 
thought more money would go to infrastructure in that package.
    Mr. Capuano. So did we.
    Ms. Andringa. And it was, like, less than 10 percent. Now, 
there were other reasons, and we were in a different economic 
situation. But I think what is really important is that 
whatever package, bold package I hear coming from this group, 
is it does have to be--it really has to be used for what it was 
intended to be used for.
    Mr. Capuano. Totally agree.
    Mr. Trumka, I actually know your answer, but you should put 
it on the record, anyway.
    Mr. Trumka. No, we don't. We think partnerships have--
public-private partnerships have a limited applicability, 
because they need a revenue source. And, in fact, if you are 
going to attract public capital, or private capital, that is 
dependent on having a Government source of--stream of revenue 
involved. And unless you can show that on a regular basis--5, 
6, 7, 8, 9, 10 years out, then private capital is not going to 
get involved, even for the small percentage of the jobs that 
they could do.
    We would support an increase in the gas tax. We think it 
should have been indexed for inflation years ago. We would also 
agree with my friend at the end of the table that it ought to 
be broadened to capture those, as changing technology goes by 
to capture more of those people, so that as electric cars and 
other forms of transportation that use highways and use the 
infrastructure in place, but skip out on it, they should be 
paying their fair share, as well.
    Mr. Capuano. Thank you.
    Mr. Chairman, I would just like to go on record as saying I 
love this panel. Thank you for having them.
    [Laughter.]
    Mr. Shuster. I am glad we made you happy, Mr. Capuano.
    With that, Governor Sanford is recognized.
    Mr. Sanford. Two quick thoughts. One, I think it is 
important to give credit where credit is due. And with regard 
to BMW, I think it needs to be remembered the time that they 
came to South Carolina. It was 20 years ago. The textile 
industry was shifting out of our State. Manufacturing had been 
hit incredibly hard, and people were hurting.
    And you know, BMW made a bet on our State, and they really 
brought--they were the leaders in bringing in a new era of sort 
of advanced manufacturing. And so, in its wake, Volvo, and 
Boeing, and a whole lot of others have come. But it was BMW 
that started that ball rolling. And I think it is important 
that I acknowledge that.
    I think what is also interesting, though, is, from the 
standpoint of global capital allocation, you have made a bet, 
in part, based on market share and entry into the United States 
market. But I think, going back to, in essence, the 
conversation we have been having with regard to infrastructure 
and how you stay competitive, the question is would you make 
that decision today.
    And if there was one single thing as you compare investing 
in India versus China versus the United States, what would be 
the one thing that you would change?
    Mr. Willisch. Very clearly, we would make the same decision 
today. And just let me say that, just by our latest investment 
of $1 billion additionally--we have now spent about $7.5 
billion--we created almost another 1,000 jobs.
    So, I think, more or less, we would do the same thing today 
again, and we would be at the same location, with the proximity 
to the harbor of Charleston. I don't think we would change--
maybe we would think about our start, which was a little rough 
in the first 2 years. But otherwise, we would do the same 
again.
    Mr. Sanford. I thank you.
    Then, let me extend this question over to you, Mr. Smith. 
You have been a visionary for a long time. You have been ahead 
of the curve, whether that is submitting a business plan in 
business school that was not exactly seen as the way to go, but 
you seem to be able to look around the corner. And I would ask 
you the same question with regard to competitiveness.
    You mentioned some good ideas, whether that is, you know, 
congestion pricing or territorial taxes. If you were, let's 
say, Donald Trump, and you look at this notion of being a chief 
executive in this country, and you look at, again, capital 
allocation, how do we attract and retain more in the way of 
capital that leads to investment and jobs, are there a couple 
other things that we haven't talked on today?
    Or, as you look around the corner at what comes next, are 
there things that jump out at you that you would say, ``You 
know, as a committee, you all ought to think about X or Y''?
    And let me throw in one last thought on that question. I 
think that one of the things that some of us struggle with with 
regard to taxes, not just a knee jerk reaction to a tax 
increase, but rather this notion of Thomas Friedman's flat 
world, and how indeed competitive the global marketplace is.
    And so, if you look at CBO numbers, what they show is that 
deficits are projected to increase rather dramatically. And 
that is in sort of a best-case scenario. What is interesting 
is, in essence, a deficit is simply a tax. It is a deferred 
tax. It is handed to the next generation, but it is a tax. The 
taxes are already going up.
    And so, what a number of us struggle with is not a knee 
jerk reaction to a gas tax or other things, but how do we 
retain competitiveness if, overall, our tax environment begins 
to look less competitive than some of the other choices that 
FedEx or BMW or other places have around the globe. Any pearls 
of wisdom or thoughts on that front?
    Mr. Smith. Well, assuming that regulations become more 
efficient, which the President started to do with his Executive 
order the other day--and you just heard an example down here of 
a wonderful business that--overwhelmed with regulations.
    But the single most important thing the United States could 
do to be more competitive is to lower the corporate tax rate 
for C-corporations. The top 1,000 corporations in America make 
50 percent of all capital investments. Those are the tools that 
I was talking about that make our blue collar workforce more 
productive and able to earn more. And the same time that that 
happens, we should go to a territorial tax system with some 
sort of appropriate tax rate to keep from gaming the system.
    I saw the other day Chairman Ryan talking about this 
suggested border adjustability tax being equivalent to a VAT. 
It is not. Mexico has both a corporate income tax--much lower 
than us--and a border-adjustable VAT, which everybody sees and 
is eliminated at the border.
    C-corporations pay about $300 billion in taxes. If you 
lowered the corporate tax rate and went to a territorial 
system, I have no doubt, from talking to CEOs in industries 
around this country, CAPEX, GDP goes up, tax receipts would 
increase. The top 5,000 C-corporations make 95 percent of the 
capital investments in this country. You can't apply the same 
rates to C-corps that--to pass-throughs. And that is the 
problem. That is what is driving this border adjustability 
concept.
    If you are a pass-through, a sub-chapter S, an LLC, and you 
want the corporate tax rate, then you can reincorporate as a C. 
And when you take that money out, you pay whatever the personal 
income tax rate is. But retained earnings in C-corporations are 
the feedstock of tomorrow. And the only way to pay those bills 
without increasing the deficit is increased GDP.
    Mr. Shuster. Thank you, Governor.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And gentlemen, 
everybody on the panel, I would like to refer to that saying up 
there: ``According to the system of natural liberty, the 
sovereign has only three duties to attend to.'' One, the third 
one, ``The duty of erecting and maintaining certain public 
works and certain public institutions, which it can never be 
for the interest of any individual or small number of 
individuals, and to erect and maintain,'' et cetera.
    Say it--that said, I hear what you have said in regard to 
the maintenance of bridges, roads, all of that. Do you know 
that the Army Corps of Engineers has a $40 billion construction 
backlog, a $20 billion operations and maintenance backlog, and 
appropriated only $4.5 million this year? Makes sense to you? 
Would you do that to your company? Anybody?
    [No response.]
    Mrs. Napolitano. So, I would, in all fairness to the 
administration, ask you to pose to them the question of whether 
we can continue on this road of not funding those that maintain 
the areas which you have a great interest in. Am I correct? Any 
comments?
    [No response.]
    Mrs. Napolitano. Mr. Trumka, I am very happy to say that I 
am--take my hat off to the best workers that you have. They are 
recognized worldwide for their professionalism. And I hope that 
we understand that you build to last, that you do your work so 
that everybody knows that when a union person has done it, 
there is no change order, there is no backlog on things to go 
back and change.
    In regard to the increase, Mr. Smith, there is a current 
understanding that the electric batteries are now holding more. 
You are going to CNG. Are you considering going to electricity?
    Mr. Smith. We have a number of all-electric and hybrid-
electric vehicles in our local pickup and delivery operations. 
Those are generally lighter trucks. In the heavy-truck sector, 
we are converting a significant amount of our infrastructure 
over to compressed natural gas. Neither of those are picked up 
in the current Federal gasoline and diesel excise tax.
    And so there would have to be a different system to pick up 
over the road operations of personal automobiles and heavier 
trucks that are natural gas-powered. That is why I suggested 
the RFID solution.
    Mrs. Napolitano. All right. The gas mileage is an issue. We 
have been debating of how we can collect more taxes from those 
that have electric vehicles, CNG. Somehow we have been on this 
conversation for years. We have yet to come to an agreement. 
Will you have any suggestions?
    Mr. Smith. Well, again, if you want to build 
infrastructure, it would be a relatively simple task, with 
today's technologies, to build an RFID reader system throughout 
our Federal highway system. A small tag, just like you have 
when you--if you are a regular user going through the tunnels 
in New York that read when you pass by and send you a bill on 
your credit card, I mean, that should be an integral part of 
infrastructure spending to develop an alternative electronic 
system that allows users to help pay for the system.
    Mrs. Napolitano. But it is easier for you to say. You try 
Government trying to come to an agreement.
    Mr. Smith. No, I understand. I have been testifying in this 
exact room for 43 years. So I have watched you all very 
closely----
    [Laughter.]
    Mrs. Napolitano. Precisely.
    Mr. Smith [continuing]. For many, many years. And over the 
last 25 or 30 years I think the whole conversation of this 
committee has been the inability of people that are in the 
Congress to support payment streams for things that we have to 
have. I mean that is the issue. It is not any failure to 
recognize we have got a problem here. It is an unwillingness to 
provide the funding to fix it.
    Mrs. Napolitano. Precisely.
    Thank you, Mr. Chairman. Yield back.
    Mr. Shuster. Thank you. Mr. Woodall is recognized.
    Mr. Woodall. Thank you, Mr. Chairman. It has to be said 
that, according to Mr. Smith's testimony, the first packages 
went out in April of 19, what, 73. So if 44 years ago business 
opened and you have been dragged in front of this committee for 
the last 43 of those years, we have some bigger problems that 
we need to work on together here, Mr. Chairman. That is just a 
show of respect to the generations of Shusters that have led 
this organization here.
    [Laughter.]
    Mr. Smith. Seems like I have been testifying before 
Shusters for a long time.
    Mr. Shuster. I believe that.
    [Laughter.]
    Mr. Woodall. Mr. Chairman, I appreciate your doing this 
panel to get us started this year. This is full of American 
success stories, each and every one. I certainly count the BMW 
success story as an American success story. I was going to 
school in South Carolina in 1992 when that announcement was 
made. And the sense of hope and optimism that BMW brought to 
that South Carolina community cannot be overstated. And the 
need for that hope and optimism today cannot be overstated.
    I represent the great State of Georgia. And, of course, our 
port in Brunswick is a large exporter of your product. Once 
upon a time, more product per production--more product was 
exported from that plant in South Carolina than any other 
automotive plant in this country. Is that still the case, do 
you know?
    Mr. Willisch. At least I have knowledge that it was the 
case in 2015.
    Mr. Woodall. I drive that point home because folks talk 
about infrastructure and getting goods to market and people 
building plants in America because that is where the consumers 
are. I want to talk about the fact that we have the best 
workers in the Nation, on the planet, that are teamed up with 
the best infrastructure in the world that lead to those kinds 
of exports. And I would love to have an export-driven economy, 
instead of a consumption-driven economy. And I appreciate what 
BMW does to help make that happen.
    Mr. Smith, I wanted to ask you about open skies. I saw it 
on the tail end of your testimony. Undoubtedly, competition is 
the key to making sure that we are all doing the very best we 
can. Competition is good for McDonald's and Burger King. It is 
good for politicians, and it is good for aviation. But I do 
worry about unfair competition. And I hear from our domestic 
carriers, not that they want a special carve-out to prevent 
competition, but they want a level playing field so that they 
can have fair competition.
    In your testimony it seemed to suggest that you dismissed 
their concerns as wanting a special carve-out instead of a 
level playing field. Could you speak to that, just for a 
moment?
    Mr. Smith. Well, no, sir. I don't dismiss the concerns of 
the three major passenger carriers at all. I would simply point 
out, as I have over and over again, there is a specific process 
and a provision in existing law that requires them to file a 
complaint. The reason they won't file that complaint is because 
they will not be able to demonstrate harm. Why won't they be 
able to demonstrate harm? Because they don't fly to the Middle 
East.
    And what they are trying to do through their opposition of 
open skies is to force travelers from Southeast Asia, India, 
and Africa to go over their code partners, or on their systems 
through Western Europe, as opposed to going through the hubs in 
the Middle East.
    So, if they want to have this fight, there is a provision 
to do that. They won't file under the existing provision to let 
everything see the light of day. So we don't support their 
position, because of their refusal to do that.
    Mr. Woodall. They--well, undeniably, being able to 
demonstrate that unlevel playing field is critical.
    I remember back in 2012 FedEx had that same concern about 
subsidies in the postal marketplaces around the globe, 
demonstrated that concern. I want to see those concerns 
demonstrated and eliminated. And I hope Secretary Chao is going 
to be able to give an open ear to that. FedEx is an amazing 
success story. You, as an individual, are an amazing American 
success story. And I am certain that keeping a level playing 
field is going to be that foundation on which we build more 
American success stories.
    Mr. Trumka, I wanted to comment on part of your testimony. 
Folks don't get to see your testimony written, they just listen 
to it. It is your overarching principles there at the very end.
    Number one--you could have listed anything as number one. 
And you said, ``Number one overarching principle is the program 
must include investments that are as transformative in the 21st 
century as railroads, highways, telephones, radio, and 
television electrification were in previous centuries.'' I just 
couldn't agree with you more. I get so tired of nibbling around 
the edges, and I don't see a hunger back home for maintaining 
roads. Folks believe that is the lowest part of the bar. Of 
course we are going to do that. Of course we are going to keep 
our commitment to that.
    What are we going to do to transform ourselves going 
forward? And I say that coming from a not particularly 
unionized part of the world down there in Georgia. Of all the 
things we can partner on, all the great American success 
stories that are there, I just want you to know how much it 
means to me, first hearing out of the gate we are talking about 
what we can do, golly, to be as transformative in the 21st 
century as those accomplishments were you mentioned in the 
20th.
    Thank you, Mr. Chairman, for having an opportunity for us 
to----
    Mr. Shuster. Thank you.
    Mr. Woodall [continuing]. Celebrate what we agree on.
    Mr. Shuster. You brought up my father's name, so whenever 
you brought it up I got to--impart some Shuster knowledge. So 
there has been a Shuster on this committee as long as FedEx has 
been in existence. So we are glad we have been able to work 
with you. And I hope your time in front of me was more pleasant 
than in front of my father.
    [Laughter.]
    Mr. Shuster. Because I know how tough that can be.
    Ms. Titus is recognized.
    Ms. Titus. Thank you, Mr. Chairman.
    I greatly respect your 43 years, Mr. Smith. I have been 
here now--I am in my fourth term, and I have a similar 
experience. Nothing really has changed over those years, except 
my seat has moved back a little bit. We are having the same 
conversation, got the same rhetoric. Need to fix the 
infrastructure. We got the score of D minus on the engineers' 
infrastructure report card. All the options are on the table. 
We need to look at this. It is just a matter of paying for it. 
But there is no substantive plan.
    I commend the ranking member for trying to put out 
something on paper to say this is how we can fix it. But there 
is no plan, it is just a little dibs and dabs here and there. 
Everybody agrees we need to do something. Well, that is not 
going to get the job done.
    We have also heard a lot about maintenance of 
infrastructure, but I can tell you in the West, and in my State 
of Nevada, where you have had rapid growth and development, 
there is a tremendous challenge there, too. It is not so much 
repair and maintenance, but it is providing access. If you look 
at Nevada, we are $285 million shortfall every year for the 
next 10 years, just to build State highways, alone. So we have 
got to do something.
    Actually, my question goes to Mr. Trumka. I would like to 
ask him what he thinks about the suggestion that all our ills 
will be solved if we just give more corporate tax breaks to the 
big companies.
    And then, my second question, going back to the 
conversation about the public-private partnerships, how you 
would address those in terms of labor agreements, employment 
agreements. You know, everybody talks about those as though 
there are hundreds of them out there. There is really only a 
handful. And I can tell you that, in Nevada, where they are 
doing Project Neon, which is a big interstate project right 
downtown, they looked at doing one of these P3 agreements and 
decided it made no sense financially or from a maintenance and 
management perspective, and backed away from it.
    So would you address those two questions for me?
    Mr. Trumka. I certainly will. A lot of talk has been had 
about repatriation, first of all. And that, of course, is a 
lump-sum revenue source, one time. Previous repatriation plans 
have disadvantaged U.S. companies by giving tax breaks to their 
offshore counterparts. We would oppose any kind of tax system 
that encouraged or rewarded outsourcing off country.
    Further, any action on repatriation should not reward those 
who game the system by granting them overly low tax rates. So 
we would end the deferrals. We would be willing to look at a 
lot of different things, including border adjustment taxes, 
things of that sort, that would actually encourage production 
here, encourage manufacturing here. But we don't think that 
just cutting taxes is a solution because, in many instances, we 
can show you where low taxes have done nothing, and some of the 
biggest companies that have paid no taxes have still continued 
to offshore things.
    With regard to the private partnership stuff, how would we 
take care of that? First of all, they are of limited access, 
and limited use. They require a revenue source. And so repair 
and maintenance jobs, things of that sort. And even in the 
rural areas, where the revenue source would be low, are never 
going to get built. If you do them--and there are instances 
where we could see working with them--you still need to have 
the protections of 13(c), Davis-Bacon, domestic preferences, 
protections for rail and public-sector workers.
    And we would increase the Buy America provisions of that, 
as well, so that, in fact, those tax dollars, or even the 
private-sector dollars, are used to increase jobs here at home, 
and increase our economy, rather than drive down the wages of 
Americans here.
    We are willing to look at and work with people on a lot of 
different funding sources. But blindly saying all you have to 
do is reduce the income tax on corporations and everything will 
be fine simply doesn't square with reality.
    Ms. Titus. Thank you very much. I yield back.
    Mr. Shuster. Mr. LaMalfa?
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you for 
convening this. And indeed, a very good cross-section of 
interest on this fine panel today, representing a lot of what 
America is looking at for its transportation and materials 
transporting needs.
    So when I--you know, first time on this committee here, and 
I am excited about it. I hear a lot of conversation going on 
here about the different aspects of how we are going to 
accomplish things. And I just want to always remember that when 
I hear maybe a little is being done to get the funding, well, a 
lot is being done every day by every American family in paying 
the way for all of this, whether it is the gas taxes they fuel 
up, or the tax on tires, as well as the excise taxes that come 
along the way, and then on the products that they purchase when 
they--when a truck is carrying that--if you got it, a truck 
brought it, but a truck paid to get it there, as well as rail 
and ports.
    So there is a lot of ways people are already paying for 
this. And I think what really needs to have more attention paid 
to it is that--are we doing things as efficiently as we can 
with the dollars we have? Are the dollars being channeled into 
transportation infrastructure that people are paying at the 
pump?
    Interesting discussion on ports a little bit earlier. I 
don't know the--all the background on that particular port fee 
that isn't being paid completely towards using it for ports; I 
need to learn. But that is a great discussion. But people, when 
they are paying it, they certainly want to see those dollars 
get into the infrastructure and not go somewhere else.
    So, we have--I am from California, I am from the ag 
business myself, and surrounded by many people that are in 
agriculture, whether it is grain or fruit, nut crops, hay 
crops, you name it--timber industry. So they are very 
interested in a lot of the port aspects, as well. And being on 
the west coast, it is getting pretty tough with the port system 
we have there, with the load we have. And we--you know, we saw 
ag products suffer quite a bit just a couple years ago, when 
things weren't moving very well through the ports. So we are 
glad to see that moving well. A strong bipartisan effort in 
this town helped to overcome some of those challenges. So we 
need to keep that going. But we have issues with our ports, you 
know, dredging that needs to be done to keep, like, the ports 
in northern California moving well.
    We got to overcome the obstacles. And sometimes I see a lot 
going on with getting permitting done to do anything on, you 
know, port maintenance, adding the highway infrastructure. I am 
in the rice business, OK? And so when I saw some--this is not 
that many years ago they were going to infringe on a rice 
field, you know, pay the farmer for the land that was being 
taken in order to build up an overcrossing and a clover leaf. 
They were also concerned about the mitigation for the rice 
land, because they look at that as habitat. Now, that is 
someone's private property. And--but they are going to--they 
were worried about mitigating the land that was in a rice 
field. And that just kind of blew my mind, as a rice grower, 
that, no, I am--you know, so there is a lot of hangups on just 
getting these projects done.
    And so, when I am looking at the--how the folks in my 
district, they are especially going to be interested in what 
further can be done to--and I would point this to Mr. 
MacLennan, if you don't mind, on that. What do you see, as far 
as our rail system being able to get some of these products to 
port and trucking--but the main thing being the port aspects of 
moving sometimes very perishable products timely--through 
those, I mean, so we can remain competitive on the west coast, 
as well as the whole Nation?
    Mr. MacLennan. Yes. As you pointed out, Representative, the 
congestion--the port congestion in this country is the worst on 
the west coast. And so, when you have the congestion in the 
port facilities, it backs up the whole system. And, to your 
point, it creates all kinds of damages, losses relative to the 
value of produce. It impacts export markets.
    So, I think, you know, whether it is dredging, or 
increasing facilities for barges along the riverways, as I 
mentioned, a safety--but your particular district--not 
necessarily your district, but California in particular--is in 
the most need, relative to port facility improvement, which 
will improve our trade and our overall commerce, and the 
livelihood of the farmers.
    Mr. LaMalfa. And what do you see are roadblocks that we 
could handle in Government that don't necessarily mean, you 
know, an additional fee or a rate hike or something? What are 
some of the road blocks we could be doing that would be using 
the dollars we have in our system?
    Mr. MacLennan. Well, we have got the Harbor Maintenance 
Trust Fund is the quick answer. I mean we have got billions 
there in the taxes that have been collected, you know, waiting 
to be spent. So I think I would focus on that first, is getting 
the funding into the system, and through a--whether it is 
public-private partnerships, or, you know, the projects that 
are already underway that has been pointed out in committee 
from the Army Corps of Engineers, we are ready to go.
    Mr. LaMalfa. Yes.
    Mr. MacLennan. With the funding.
    Mr. LaMalfa. I get concerned about permitting, as well, 
because there is----
    Mr. MacLennan. Yes, yes.
    Mr. LaMalfa. You know, let's get the work done, let's get 
the people to work doing the work that want to, and----
    Mr. MacLennan. You have got to have the efficiency.
    Mr. LaMalfa. Yes. I yield back. Thank you, Mr. Chairman.
    Mr. MacLennan. Thank you.
    Mr. Shuster. Thank you. Ms. Wilson is recognized for 5 
minutes.
    Ms. Wilson. Thank you. Thank you, Chairman Shuster and 
Ranking Member DeFazio, for holding this important meeting. I 
am a new member of this committee, and I look forward to 
working with both of you and the entire committee to provide a 
21st-century infrastructure for our 21st-century businesses and 
communities.
    Thanks to all the witnesses who have testified here today. 
I am the founder of the Florida Ports Caucus and the chair of 
the Florida Ports Caucus, and we do a lot of work with ports.
    But when my--when I first arrived to Congress I would go to 
the floor every day and my mantra for Congress would be jobs, 
jobs, jobs. And I was concerned because we were unable to pass 
a jobs bill. And I had two great jobs bills that would create 
jobs, because I believe that if we employ everyone in our 
country, then we would have a better country. We wouldn't have 
people on--so many people looking to Government for help. We--
everyone would be working.
    In my opinion, I think that--I want to ask a question, 
first of all, to Mr. Smith. And I want to first thank him for 
creating so many good jobs in my district for my constituents. 
I represent Miami-Dade County, which is home to several FedEx 
shipping centers and a significant regional hub for Latin 
America and the Caribbean, which we were happy to tour. I want 
to also acknowledge your--you for the diversity of your 
workforce. I was able to tour your operation in Paris, thanks 
to my dear friend, your senior vice president, Gina Adams. It 
was an extraordinary experience.
    In your written testimony, you warned that FedEx would not 
be able to continue to grow the economy and create jobs without 
improved infrastructure. And I was happy to hear you mention 
education. I am a former school principal, so I know how 
important it is for children to be educated to take the next 
level of jobs that we create. Could you please elaborate on the 
impact of delayed infrastructure investment on your company and 
sector?
    And also, you said that you believe user fees would help. 
And are you interested, or would you approve higher user fees 
to get this done? Because everything is stuck.
    Mr. Smith. Well, the answer to the last question is yes, we 
would support higher fees. And as I have mentioned several 
times, we have supported an increase in the Federal gasoline 
and diesel tax to do that.
    But let me give you one factoid which will just bring this 
in perspective. All of us know what it is like to buy a tire 
for our car. Over the past 20 years, our over-the-road vehicle 
tire utilization has been cut in half. So we are using almost 
100 percent more tires to produce the same mileage of 
transportation. Why is that? Because the road infrastructure 
has so many potholes in it, it is tearing up tires faster than 
what was the case before.
    The congestion, Mr. DeFazio's clock up there, is a real 
cost to business and a real cost to consumers. The cost of 
congestion is getting worse. It is preventing time-certain 
deliveries, which are important for things for hospitals and 
things of that nature. So there is a cost to the public, there 
is a cost to FedEx, there is a cost to UPS, there is a cost to 
Cargill by delaying these expansions and required upgrades and 
maintenance of the highway system.
    So thanks for your job as a teacher. My brother was a 
teacher. After parenting, it is the most important job in the 
country, in my opinion.
    Ms. Wilson. Right. Thank you.
    Mr. Trumka, in your written testimony you mention reducing 
poverty and inequality as a guiding principle for 
infrastructure investment. In your opinion, what infrastructure 
investments and policy reforms would best support poverty 
reduction?
    Mr. Trumka. I think there is two facets to that answer. One 
is we talked about automation and new technology, and that has 
always been important for a dynamic economy. And it is 
important in transportation. But that said, we can't use 
technology as an excuse to ignore the cost to workers, 
communities, and safety. If anything, technology should be used 
to combat inequality, not to ignore or accelerate the problem.
    And so, one point I would make is, as this committee looks 
forward, you ought to strike--I look forward to working with 
you so that we can strike the right balance between worker 
safety and progress.
    The system sometimes locks people out. And so we have to 
get them skills at the lower level. We have started, in our 
apprenticeship program, going back and doing remedial courses, 
offering remedial courses so that applicants have the necessary 
math skills--writing skills, reading skills, English skills--to 
be able to pass our entrance exam and get into the community, 
make sure everybody has that opportunity.
    Also, if you can't do--if you do public-private 
partnerships and you don't follow the protections of 13(c) and 
Davis-Bacon and domestic preferences and all of those things, 
tax dollars will be used to drive down wages, which will 
increase poverty in a lot more areas. And so we would guard 
against those, as well.
    And the projects ought to be spread through the country, so 
that there is a geographical look at it. So the rural Americans 
are getting a shot at some of the jobs and some of the better 
infrastructure, and thus--then looking more attractive to 
business to come into some of those rural areas. And we would 
urge the committee to look at that geographical spread, so that 
large segments of Americans aren't just locked out, that we 
don't just do this in populous areas, but we look at the rural 
areas, as well.
    Mr. Shuster. The gentlelady's time has expired. Mr. Lewis 
from Minnesota is recognized.
    Mr. Lewis. Thank you, Mr. Chairman. Thank you all for 
coming today. It is very important that we hear from the 
experts in the field and doing the tough work. I represent a 
district in Minnesota that is primarily suburban, primarily 
automotive-dependent. We have got a couple of major interstate 
arterials through our district, 35 and 35E, and congestion is 
always a problem. Over 78 percent of the citizens in that 
district commute by car alone. If you add in pools, it is 87 
percent. So that is very high on our agenda.
    But Mr. Trumka said something interesting not long ago, and 
it is how we invest matters. And when I look at this, and I 
think when the committee looks at this, I hope, that we are 
going to look at the investments that have the greatest return.
    We all know that productivity is the key to rewarding both 
labor and capital. It is not a zero sum game. If we are more 
productive, everybody benefits. So, let me ask you--and let's 
start with my Minnesota friend, Mr. MacLennan. What do you 
think, when we look at roads, bridges, rail, certainly air 
traffic control, airports, broadband, transit? What is the 
biggest bang for the buck, in general, in--certainly that 
affects your industry?
    Mr. MacLennan. Well, thanks, Representative Lewis. I am a 
little biased, relative to making sure we take care of the ag 
economy. And I think the ag economy in Minnesota and the rest 
of the United States really can benefit from continued 
investment in our port system and our riverways.
    And I mentioned a little while ago that the efficiency of 
our riverway system relative to volumes that you can put on a 
barge. You can put over 50,000 bushels on a barge, maybe 1,000 
bushels on a truck, so it is environmentally friendly, but it 
does have limitations. So I think, relative to not forgetting 
the importance of the rural economy and the jobs, and the 
importance of the rural economy to the agriculture system, I 
think for us they are all connected. It is kind of a, you know, 
three-legged stool: rail, road, rivers, as well as ports. But 
for us I think it is riverways and barge transportation and 
ports.
    Mr. Lewis. Mr. Smith, you had mentioned the idea of moving 
to a system that is essentially a user fee system, or getting 
there, getting closer to that. And you talked about congestion 
pricing. That intrigues me a little bit, and it intrigues a lot 
of people who haven't just read Reason Magazine lately.
    But we have got a couple of interstates there that--
sometimes during the day it is relatively free-flowing. But not 
at 7:30 and not at 4:30. Can you elaborate on that just a 
little bit?
    Mr. Smith. Well, congestion pricing would presumably move 
some of that traffic into the shoulder periods, where the 
highways aren't utilized as much. There are many people that 
don't have discretion in when they travel.
    But congestion is always on the margin. In other words, it 
is that last 3, 5 percent that causes gridlock. So moving a 
relatively small number of cars and trucks into the less 
congested time of the day makes the infrastructure more 
productive. That is what they showed down in Florida when they 
used congestion pricing.
    Having said that, the real key is to provide more 
infrastructure and alternative routings. You can't just solve 
the problem with some sort of technology and congestion pricing 
and incentives to use higher occupancy vehicles, and so forth. 
You have got to build the additional infrastructure that I was 
reading from a little earlier, that our interstate highway 
projects that--we could start building tomorrow if there were 
funds available to do it.
    Mr. Lewis. I think we do have to do exactly that. In fact, 
I used to say that the trucker is a lot more productive with 
the truck. Now we can include the road, too. They have got to 
get the infrastructure.
    Now, there are opponents to some of this. Real quickly, 
anybody on the panel? And I hear it in the Minneapolis-St. Paul 
metro area quite a bit, that, ``Well, this is great, but you 
can't build your way out of congestion.'' We hear that from the 
opponents of adding on to any infrastructure capacity. Anybody 
can comment on that if they like, but I hear that a lot.
    Mr. Smith. Well, that--to some degree it is like saying in 
Memphis, Tennessee, nobody would like to use a bridge across 
the Mississippi River other than the one we have, because it is 
so heavily utilized.
    Mr. Lewis. Yes, right.
    Mr. Smith. So you build another bridge, and all of a sudden 
you are amazed at how many people decide they want to go over 
there to avoid the congestion, or build a new shopping center, 
or whatever the case may be.
    So I don't think there is any question about the fact that 
the United States Department of Transportation, with the 
States, has a lot of wonderful projects to increase our 
capacity and reduce congestion.
    Mr. Lewis. Thank you. I yield back my time.
    Mr. Shuster. I thank the gentleman. Mr. Johnson from 
Georgia is recognized.
    Mr. Johnson of Georgia. Thank you. Mr. Smith, I suppose it 
has been kind of frustrating over the last several years to 
witness Members of Congress strictly adhering to their promise 
under the taxpayer protection pledge to oppose any increase in 
Federal Government tax revenues. Has that been as frustrating 
for you as it has been for many of us?
    Mr. Smith. Of course.
    Mr. Johnson of Georgia. And you, of course, know what that 
taxpayer protection pledge is.
    Mr. Smith. That is Grover Norquist's pledge that you have 
to sign, right?
    Mr. Johnson of Georgia. That is correct.
    Mr. Smith. Well, I would point out to you one thing here. 
Our senior Senator from Tennessee was heavily involved in the 
Inland Waterway Act. And it is my understanding that the 
various interests that are opposed to taxation became 
supportive, once the revenue source was redesignated as a user 
fee.
    Mr. Johnson of Georgia. So, do you mean that----
    Mr. Smith. That is the Inland Waterway Trust Fund funding.
    Mr. Johnson of Georgia. So do you mean that there was an 
exception made to the Grover Norquist taxpayer protection 
pledge that resulted in new revenues----
    Mr. Smith. That is my understanding.
    Mr. Johnson of Georgia [continuing]. To the Federal 
Government? Well, I think that is a wonderful event that has 
occurred. I wonder if we can duplicate it. Do any of you other 
panel members have anything to say about this strict adherence 
that we have seen towards this taxpayer pledge?
    While looking, of course, at the--at what was written out 
of our Constitution that our chairman put on the wall, it says 
the Congress shall have power to lay and collect taxes, duties, 
impose--and excises. It doesn't say Grover Norquist shall have 
the power. What do you all think about that?
    And I see you raising your hand, Mr. Trumka.
    Mr. Trumka. Yes. I think it has had an absolutely horrible 
effect on the competitiveness of this country. We get further 
and further behind every year, because we don't have--we are 
starved for revenue to be able to do the basic infrastructure 
that this country needs, let alone the infrastructure we need 
to transform us into the 21st century.
    If you have a house, and the house--the roof starts to leak 
on the house, and you don't take care of it, it gets more and 
more and more and more expensive. The more we delay with 
infrastructure, the more and more and more and more expensive 
it gets, and the less and less and less competitive we get. I 
think we are all pretty much in harmony on the fact that 
infrastructure needs to be done, done now, and done at a very, 
very large scale.
    Mr. Johnson of Georgia. And it is going to take increased 
revenues to do it right.
    Mr. Trumka. Absolutely. And can I just add one other thing? 
I wanted to comment to Congressman Lewis when he said what is 
the biggest bang for your buck. The best way to get the biggest 
bang for your buck is to get the lowest cost of capital for 
your buck. The lowest cost of capital spreads those bucks a lot 
further. And I will work with this committee to do that, to 
make sure that the funding source gets us the lowest cost to 
capital.
    Mr. Johnson of Georgia. Well, I think that is important.
    I also want to talk about another factor in profitability 
for businesses, and it is this issue of worker productivity. 
And I want to ask you all whether or not you believe that 
having a satisfied, well-paid workforce contributes to 
productivity and profitability when it comes to your companies. 
And, if so, then why would we support any measures that would 
hurt workers' ability to collectively bargain for issues that 
would create more productivity for workers?
    Mr. MacLennan. So I agree, that an engaged and happy 
workforce is critical to success. But I don't think that you 
have to have collective bargaining exclusively to achieve that. 
We have got about 70,000 workers in the United States, and some 
are union employees and some are not. And I think you can have 
engagement and productivity in both circumstances. So I don't--
--
    Mr. Johnson of Georgia. Well, shouldn't workers be able to 
choose whether or not they want to be able to collectively 
bargain or not is----
    Mr. MacLennan. I think that is generally the case, is it 
not?
    Mr. Johnson of Georgia. Well, you wouldn't want to hurt 
that ability, would you?
    Mr. MacLennan. I think you want to give people the 
opportunity to be well informed, and to be able to make the 
choice that they feel is best for them, yes.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Johnson of Georgia. Well, I think that is common ground 
that we can all agree to. And I thank you all for your--for 
being here today. And I thank the chair and the ranking member 
for having this hearing as our first hearing of this new 
session of Congress. It is so important.
    I also have a statement that I would like to introduce for 
the record.
    Mr. Shuster. Without objection, so ordered.
    Mr. Johnson of Georgia. Thank you.
    Mr. Shuster. Thank you, Mr. Johnson.
    Mr. Johnson of Georgia. I yield back.
    Mr. Shuster. Mr. Smucker?
    Mr. Smucker. Thank you, Mr. Chairman. As a former business 
owner, a contractor, understood the importance of highway 
system that enabled us to move goods and employees to job 
sites. And in my particular area, Lancaster, Pennsylvania, when 
we had new highway systems, bypasses around bottlenecks built, 
it opened entirely new markets for our company, because we 
could get to a new market in an hour or so, which was sort of 
our limit.
    So, with that background, I am really happy to not only be 
part of the committee, but to be part of this hearing as the 
first thing we are doing in this session. We are really 
evaluating the impact of Government investment in our 
infrastructure system.
    And I want to share just a little bit of experience. I 
served in the Pennsylvania State legislature for--the State 
senate for 8 years. And we were successful in passing an 
infrastructure bill, basically a highway funding bill, after 
years of not having done so. Pennsylvania highways and bridges 
have a bad reputation, a high number of bridges that were 
rated, you know, insufficient. And we were able to get a bill 
passed.
    And this was in an environment--to the point that was just 
raised, this was in an environment where, at the same time, 
we--and with my support--my caucus, other Members, other 
Republican Members, we were turning our State budget inside 
out, looking for ways to save dollars and ensure that we were 
providing for more efficient use of taxpayer dollars. We 
literally went line by line throughout the budget and 
eliminated hundreds of line items, and reduced overall 
spending.
    But at the same time, we were able to pass a transportation 
bill that increased our funding for transportation. How did we 
do that?
    Number one, we said that we were there to focus on the core 
functions of Government. And there were a lot of areas where we 
shouldn't have been--it was better done in the private sector. 
But, you know, our infrastructure can only be done--can be done 
best, at least, or primarily can only be done through 
Government, and maybe public-private partnerships. We did some 
of that, as well. But it is a core function of Government 
critical to our environment.
    It was a lot of work there. But what it took--I think what 
took it over the finish line, and this is--maybe there will be 
a question at the end of this for whoever may want to answer. 
But really, what took it over the finish line was a well-
coordinated, well-funded effort to educate the public on the 
importance of investment in our infrastructure.
    And we talk about the creation of jobs during the building 
of roads or whatever it may be. You know, there are also huge 
economic benefits--you have all talked about that--in terms of 
jobs created, economic growth, and so on. So I guess, you know, 
I saw it, whether it was the Transportation Association, the 
chambers throughout the State, the Pennsylvania State Chamber 
of Commerce, a coordinated effort to educate the public about 
the costs of congestion, of waiting in traffic, and so on and 
so forth, and about increased safety.
    So my question to you is what efforts are we making here, 
at the national level, to drive public support, to build public 
support for investment in infrastructure that we are talking 
about?
    Mr. MacLennan. I will answer quickly, which is I think it 
is a good point, because I think when it comes to 
transportation and infrastructure, what is most commonly 
thought about is I am spending a lot of time in my car, getting 
to and from work. And it is far more complicated in nuance than 
that. We have got railroads, we have got ports, we have got 
riverways, and we have got highways, and they are all 
interconnected.
    So I think the message that we in the private sector can 
help deliver, in conjunction with the public sector, is there 
is a cost, infrastructure is not just about highways, it is an 
interlinked system. And it is costing the country a lot of 
money and a lot of job opportunity.
    Mr. Trumka. We are already doing a lot of education with 
our central labor councils, our State, Feds, and all of our 
strategic partners, religious groups, environmental groups, and 
things of that sort.
    One of the things is to educate them. And most people don't 
know the figures, that the average commuter spends 42 hours a 
year----
    Mr. Smucker. That is the kind of--and I am sorry, I am at 
the end of my time, I am going to cut you off. But that is the 
kind of information that, you know--what we are talking about 
in the hearing room today that the public needs to hear.
    Mr. Trumka. Yes.
    Mr. Smucker. And that is how we are going to begin to build 
the kind of support we will need----
    Mr. Trumka. And we are doing that.
    Mr. Smucker [continuing]. To do that. So thank you.
    Mr. Shuster. Thank you, Mr. Smucker.
    Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. And thank the ranking member for raising 
the important issue of how are we going to pay for this. I know 
it is not directly in our jurisdiction in this committee, but 
it is something that we really need to focus on.
    I want to move very quickly through a few things. The first 
I just wanted to mention. The Recovery Act funded some things 
that were--sort of expanded what--the definition of what some 
people may think of as infrastructure. But, for example, fire 
stations were funded. And those are important facilities, 
certainly critical for public safety. So I think we need to 
have a serious discussion about what the definition of 
infrastructure is going to be, not--we won't have that here, 
right now, but I just want to put that out there, that we may 
want to think more broadly, and include things such as fire 
stations.
    I want to move on to something Mr. Trumka had talked about 
earlier. In his inaugural speech, President Trump made a 
commitment to buy-American principles. Too often, waivers and 
loopholes allow agencies and grant recipients to avoid 
compliance with domestic content requirements.
    So, I am introducing a bill next week, the Buy American 
Improvement Act. And one of the things my bill does to improve 
transparency and accountability is to close some of these 
loopholes. The bill is going to require that any waivers be 
published in the Federal Register so that businesses would be 
able to better identify products that are in demand, and seek 
opportunities to work with the Federal Government.
    I want to ask Mr. Trumka if this will be helpful, and if 
there is anything else that you would want to expand on, 
anything else we can do to better make sure that we are buying 
American and hiring Americans.
    Mr. Trumka. Closing the loopholes would be tremendously 
helpful because, as it stands right now, the lack of that has 
had a devastating effect on a lot of industry: steel industry, 
auto industry, a number of others. We recommend four things 
along those lines.
    One is that the percentage requirements should be increased 
until we get to 100 percent American content requirements. The 
Buy America must attach all infrastructure, including, as you 
noted, fire houses, schools, and drinking water. The loophole 
should be closed and the process standardized. I think you 
mentioned that your bill would do that. You would have to 
publish it in the Register, any waivers, so that people would 
know what the standards are, how you meet them, and why you 
don't meet them.
    And DOT must implement, I think, a uniform and transparent 
standard for waivers, so that the law is followed as intended. 
I think those would have a very, very beneficial effect, create 
a lot of jobs in America, and make us, quite frankly, far more 
competitive.
    Mr. Lipinski. Thank you. I wanted to move on. Something Mr. 
Larsen had mentioned--I want to ask Mr. Smith and Mr. Willisch 
if there is anything that you think needs to be--the Federal 
Government needs to do in regard to really facilitating 
driverless vehicles. I know they are going to be very important 
and already coming on to the road. Not just cars, but also for 
trucks. Is there anything either of you want to add, say that 
we should be doing in order to better facilitate this at a 
Federal level?
    Mr. Willisch. Well, very simply, potholes and discontinued 
markings stand in the way of automated driving. But those basic 
requirements should be fulfilled anyway for any car, any truck 
that is using American roads, or roads in the civilized world. 
So I would say this is the basic requirement that we have to 
fix.
    Mr. Lipinski. Thank you. Mr. Smith, do you want to add 
anything?
    Mr. Smith. Well, I think that the way forward is to have 
the United States Department of Transportation have a 
standardized, nationwide certification process, just like we do 
for aviation. So if you want to make an airplane in the United 
States, the DOT, FAA doesn't tell you how to do it, but you 
have got to meet certain standards with your engineers, and 
then they certify.
    So, just as was mentioned, there need to be standards for 
the roads, the markings, the redundancies in all of the 
technology. The worst thing that could happen is for automated 
vehicles to be subject to a balkanized, regulatory system at 
the State level. So that is my suggestion to what you should do 
to promote autonomous vehicles.
    Mr. Lipinski. Thank you very much. My time is up, I yield 
back.
    Mr. Shuster. Thank you, Mr. Lipinski. Mr. Perry is 
recognized.
    Mr. Perry. Thank you, Mr. Chairman, and thank you all for 
taking your time to be here today.
    Private-sector financing of infrastructure seems to be a--
at least a discussion, if not a cornerstone of the new 
administration. And I, too, am interested in that, specifically 
for transportation and how the private-sector can be used to 
improve the transportation system. I was privileged to sit on 
the P3 panel in this very committee that--we discussed a lot of 
those things. It is for some things, maybe not for some other 
things.
    But I am just wondering, anybody on the panel there, if you 
believe the committee should encourage and leverage the 
ingenuity of the private sector, if there is anything 
specifically that you would recommend in that regard that we 
should consider, look at, encourage, et cetera?
    Yes, ma'am?
    Ms. Andringa. Well, I think already a lot of the public-
private partnerships have been in certain areas. Like I think 
in rail, in energy, and in telecommunications. So with some of 
those, there are already probably some best practices there. 
And again, I think we have all said we are going to need more 
than that, though.
    But looking at what has worked well in maybe those three 
areas would be something that could be replicated in some other 
areas of infrastructure. Because we have lots of areas of 
infrastructure.
    Mr. Perry. Anything particular in highway and surface?
    Ms. Andringa. You know, it seems like highways are such a 
huge area. We flow people and products all the time on 
highways. So I think looking at the Highway Trust Fund and how 
we can make that solvent for the future is probably number one.
    Mr. Perry. I will give you an example. I am sorry, Mr. 
Trumka, go ahead.
    Mr. Trumka. Well, I would just make two points. One, 
permitting reform would be helpful to get projects up and going 
quickly. And the second thing is, when you look at public-
private partnerships, you still should look for the lowest 
source of capital, so that they aren't used to siphon off 
capital at a higher rate, rather than going back into 
infrastructure.
    Mr. Perry. So there is--and I would agree with you. I think 
there is a situation I know in the district I am privileged to 
represent along the Federal highway where there is a fair 
amount of business, but there is not a, you know, off ramp, 
there is not an interchange there. And the people that own the 
surrounding businesses have said, ``We would be interested in 
building it and charging people to come off of it to recoup our 
investment or whatever at some point, and working some 
arrangement out with that,'' but there is no vehicle for them 
to do that. Pardon the pun.
    You see any problem or downside to something like that at 
the Federal level?
    Mr. Trumka. Well, again, you are looking at the revenue 
source. And we would--if you are going to do that, you still--
in the building of that thing you would still want to have 
section 13(c) and Davis-Bacon, and all of those things apply, 
so that it isn't used to drive down the wages of people in that 
community.
    Mr. Perry. But aside from those things, you don't have any 
issue with it?
    Mr. Trumka. Oh, if it can work, then we would work to see 
that it worked.
    Mr. Perry. All right. And Mr. Trumka in particular, with 
your exchange with the gentlelady from Miami-Dade, you 
mentioned inequality. I have a question for you regarding 
Davis-Bacon.
    Now, according to some studies, increases transportation 
project cost by over 9 percent. And I know that there is going 
to be little agreement on what the percentage is. From my 
experience running my own business, it increased the cost. But 
that is my experience, and we can--let's just--that is just 
some conjecture out there.
    But I would just ask you. The average current 
transportation project cost, for an average cost, is $1.5 
million. And the existing threshold stands at 2,000 since it 
was moved down in 1935. That is a long time ago. I am just 
wondering if you would be amenable to having a discussion about 
raising that threshold concomitant with inflation since 1935. 
There are many people in the United States that see this as the 
last vestige of Jim Crow, as it literally keeps out some people 
that want to get into the trades, but they can't because the 
threshold is so high that small businesses can't compete, 
because they can't get in.
    Mr. Trumka. Well, I would say no. I think, if anything, the 
threshold ought to be eliminated, because the Government should 
never, never, never, never be in a position of doing work below 
the community standard. That is all it does.
    It says--Davis-Bacon says the community standard is X. And 
if that person is paying less than X, they are paying less than 
the normal people in that community are paying. Not the Federal 
Government, but the people in that community. If you come in 
and you start using tax dollars to go below the community 
standards, you drive down wages for everybody. That was thought 
a bad thing, because it spirals us downwards. I still think it 
is a bad thing.
    And so, I would say eliminate the threshold all together.
    Mr. Perry. But you would agree that was not the original 
genesis of Davis-Bacon. I mean that was not----
    Mr. Trumka. It was the original genesis of Davis-Bacon, was 
to make sure that the Federal Government didn't use tax dollars 
to drive down wages.
    Mr. Perry. No, it was to keep out certain classes of 
workers, namely blacks and immigrant workers, from Federal 
projects.
    Mr. Trumka. Well, I totally----
    Mr. Perry. I can cite that for you. But OK----
    Mr. Trumka. I would totally disagree with you about that.
    Mr. Perry. Thank you. Chairman, I yield back.
    Mr. Shuster. I thank the gentleman. Ms. Lawrence is 
recognized.
    Mrs. Lawrence. Chairman Shuster and Ranking Member DeFazio, 
thank you for holding this hearing.
    I was a mayor for 14 years. And during that time I had 
people come to me directly when water pipes, potholes needed to 
be fixed. And I got it done. But mayors across this country are 
very concerned now, because they are making financial decisions 
about the taxpayers' dollars in their community, and they 
knowingly know that their disinvestment in the infrastructure 
is going to have an effect, sooner or later.
    Mayors across the country--and there was an article in 
Politico, ``Highways Aren't Enough.'' We are at a critical 
time. And I am comforted to hear our plan for investing in the 
infrastructure. I am also encouraged by--one of the few things 
I am encouraged by is that this administration has made a 
commitment to invest in our infrastructure.
    Today we have a panel--business, labor, CEOs--talking to 
us, and we are all on the same page, Democrats and Republican. 
Maybe this is our time to really put the--put our actions and 
money behind what we all know should be happening.
    Mr. Trumka, I was very intrigued by your job training and 
apprenticeship programs. Now, ladies and gentlemen, I started 
the skilled trade caucus here in Congress. The average age of a 
skilled trade worker is 53 years old, and we have pretty much 
decimated the training and investment in a trained, skilled 
workforce. We do not have the number of young people entering 
into the skilled trades. We know that if we do this investment 
in the roads, we will get jobs. But they will be skilled trade 
jobs.
    So, Mr. Trumka, you have a--really, a birds-eye view of the 
challenge of the skilled trading apprenticeships. Can you talk 
to us about how we can invest, when we are doing our plan, that 
we are also training the workforce that can get the jobs?
    Mr. Trumka. Well, I can try. We have started partnering 
with community colleges to do remedial courses, but to do one 
other thing. We have also looked at small manufacturers that 
need maybe 10, 20, 30 people, and we have said we will provide 
those skills for you, we will train them, but you have to 
guarantee a job at the end of the mill.
    Mrs. Lawrence. Exactly.
    Mr. Trumka. And we have been working with them. And 
anything you could do to encourage that kind of commitment 
together, us getting people together and helping our 
apprenticeship programs--obviously, the more work you have, the 
more people you put through it, the more people you could put 
through the apprenticeship program, the remedial program, and 
put them to work.
    And the beautiful thing about the apprenticeship program is 
you are getting an education. When they come out they are two-
thirds of the way to a bachelor of science degree.
    Mrs. Lawrence. Exactly.
    Mr. Trumka. They have an associate degree and they are 
getting paid the entire time that they are in the 
apprenticeship program. And it is helping our employer, because 
you have a mix between journeymen and apprentices that actually 
help us develop the skills necessary to go forward.
    Mrs. Lawrence. Yes.
    Ms. Andringa. Yes, I would just like to also emphasize how 
important it is, I think probably for this committee, as 
others, to also work with the Department of Labor to show that 
these things need to work together, and I think across the 
Nation.
    And I know manufacturers have been talking about that, as 
well as infrastructure, for many years. A skilled workforce is 
so important. Just one example in the State of Iowa now, our 
Governor has made it a goal that at least 70 percent of high 
school graduates go on to something, either a 2-year program, 
which we are highly recommending, 4-year, or a good certificate 
program.
    Mrs. Lawrence. Yes.
    Ms. Andringa. And again, that includes the apprenticeships 
and the internships and the co-ops.
    And I know our community has a career academy for our high 
schools, our local high schools, so that the students get time 
to do what we call real-world work.
    Mrs. Lawrence. Yes.
    Ms. Andringa. And I loved it when I had a senior in high 
school come and work with a computer programmer for a couple 
weeks. This was like a winter program. At the end he said, ``I 
now have found a real-world application for algebra.'' And he 
was going on to a 2-year institution.
    Mrs. Lawrence. I want to--because my time is running out--
--
    Ms. Andringa. Yes.
    Mrs. Lawrence. Mr. Smith, you have the truck drivers, and 
you have a real need for a skilled workforce there. Is there 
any--as far as roads and getting our skilled truck drivers 
together, do you see a connection here?
    Mr. Smith. Well, I think that the most important thing to 
get people on the roads that are qualified is to invest in the 
technologies that make the vehicles more safe, which we are 
doing to the tune of hundreds of millions of dollars a year. 
And it makes the job more pleasant. As I mentioned, we should 
have auto-pilots in the vehicles to make it less boring, and so 
forth.
    Let me give you a real-life example. We have thousands of 
aircraft mechanics. And the whole job has changed because of 
digital technology.
    Mrs. Lawrence. Yes.
    Mr. Smith. So we partnered with a community college in West 
Memphis, Arkansas. We are training these folks. They come in as 
apprentices. And those with full benefits, and so forth, are a 
fantastic job. Much higher paying than many college graduates. 
So I think business and the States at the community college 
level, working with businesses, can produce a lot of high-
income, blue-collar jobs in the United States. They are not 
even blue-collar jobs any more, they are----
    Mrs. Lawrence. They are skilled trade jobs.
    Mr. Smith [continuing]. Computer-oriented.
    Mr. Shuster. The gentlelady's time is expired.
    Mrs. Lawrence. Thank you.
    Mr. Shuster. And I just urge Members to stay on 5 minutes 
or less. They are going to call a vote in about 1:15. I don't 
want to shortchange anybody, don't want anybody to not get a 
chance to ask a question.
    With that, Mr. Graves is recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
thank all of you for being here, I appreciate your endurance. 
This has been very helpful, though.
    Ms. Andringa, if I remember correctly, you were on the 
President's export council, is that correct? The President--
excuse me, President Obama, years ago, during the State of the 
Union speech, indicated his intention of doubling exports. And 
I don't remember the year, I think it might have been 2015. 
And, as I recall, nothing close came about. Could you talk a 
little bit about, looking back, where you see some of the 
course corrections that you wanted done, had you started over 
again?
    Ms. Andringa. Yes. That definitely was a goal. And we were 
making progress for a few years. But, to be honest with you, 
for us as an exporter, when the dollar went so high, our high 
dollar made it much more difficult to export, because we were 
competing with less cost from a lot of our competitors 
overseas.
    Mr. Graves of Louisiana. Did you see a role in investment 
in infrastructure at all----
    Ms. Andringa. I was on the workforce group, and we talked a 
lot about the skilled workforce that we need. And we also 
talked a lot about how to make sure we include small and 
medium-sized enterprises.
    Infrastructure was definitely one of the topics, and 
usually the Secretary of Transportation was at those meetings. 
So it was definitely connected. We talked a lot about ports, we 
talked a lot about water, but probably not as much maybe as we 
could have.
    Mr. Graves of Louisiana. Thank you. Many of your companies, 
you deal with logistics. And obviously, a critical part. Part 
of your calculation, Mr. Smith and Mr. MacLennan, it 
specifically gets back to looking at efficiency. You have to 
get products to certain places in certain periods of time. You 
look at different routes, you look at different modes of 
transportation, and you have to determine the most efficient 
way of delivering something.
    Similarly, we have talked in this committee today about the 
need for additional investment to recapitalize our 
infrastructure. But there has not been a lot of conversation 
about whether we are using the right prioritization system. You 
have to prioritize how you are going to get a product from A to 
B. Do you have any comments about the current system that we 
use to prioritize the investment of infrastructure dollars in 
the United States?
    Here is where I am going. We all know four-lane roads that 
don't have a single car on them. We all know four-lane roads 
that are bumper-to-bumper traffic. Do you have any thoughts 
about lessons learned, perhaps from your business, from your 
perspective, about how we could do a better job investing our 
existing dollars?
    I ran an infrastructure program for a number of years, and 
everyone's first go-to is we need more money. And I don't 
believe that is always the case. And I am not saying--I think 
we need additional capitalization here, but I also think that 
we probably can squeeze additional efficiencies out by doing a 
better job using the right metrics to prioritize investment.
    Mr. Smith. Well, I think that is true, and I think that is 
going to be a big source of focus of Secretary Chao. She is 
very good at this area, and she will prioritize the things that 
have the greatest national impact on the national productivity 
and efficiency. And I read off a litany----
    Mr. Graves of Louisiana. You did.
    Mr. Smith [continuing]. Of projects that would----
    Mr. Graves of Louisiana. Including my home State of 
Louisiana, which I appreciate.
    Mr. Smith. Well, one of them is right in Louisiana, that is 
right. So that is what we ought to prioritize, right there, and 
adding to and improving and updating our Interstate Highway 
System in the main.
    Mr. Graves of Louisiana. Mr. MacLennan, you would like to 
add----
    Mr. MacLennan. I would just add to that, that I think--you 
know, in a traditional capital allocation model you are looking 
at returns on capital. And, Rich, you mentioned lowest cost of 
capital. But I think, relative to infrastructure, I think 
sometimes you can put quantitatives aside and go to 
qualitatives. Get some quick wins. Get some very visible 
projects.
    And the congressman previously had asked about how can we 
educate the public. But, you know, I think it is not just 
necessarily about return on capital, but I think it is about 
speed, getting money into the system. Things that can get these 
bottlenecks done and get money into the system fast and 
visibly, I think is a good model to apply, a qualitative model.
    Mr. Graves of Louisiana. Thank you. Last question, and I 
want to ask you to be very brief so I can return some time 
back, but just very quickly, do you believe that there is an 
opportunity to increase utilization of waterways in an effort 
to help reduce congestion on highways?
    Mr. MacLennan. Absolutely. I have mentioned before about 
the efficiency of the waterways. And you can get more bulk, you 
know, from the agricultural economy onto our waterways. Your 
home State, I mean, we mine salt in Louisiana and ship it up 
the river and bring up fertilizer up the river, and it takes 
pressure off the highway system.
    So part of being the interconnected system, the opportunity 
here is invest across the board, rails, roads, ports, and 
rivers, and that frees up congestion on the highway system.
    Mr. Graves of Louisiana. Thank you.
    Mr. MacLennan. Thank you.
    Mr. Shuster. Great question from the new chairman from the 
Water Resources and Environment Subcommittee. Mr. Payne is 
recognized.
    Mr. Payne. Thank you, Mr. Chairman. And thank you to the 
ranking member for holding this hearing. Such a great cross-
section of industry in this country, and issues around 
transportation.
    Mr. Trumka, you know, I come from--I am a lifelong resident 
of Newark, New Jersey. And the city's unemployment rate is 
currently around 9 or 10 percent. You know, yet, you know, my 
district sits at the doorstep of what could potentially be the 
Nation's largest infrastructure project in the coming decade, 
the gateway project.
    You know, billions of dollars of public investment are 
needed to make the gateway a reality. Can you speak a bit more 
about how large-scale infrastructure investments and training 
people--you know, just as the--training you were talking 
about--can help put our Nation back to work?
    Mr. Trumka. Yes, I--we are talking trillions. I think the 
deficit for old infrastructure is approaching $4 trillion right 
now. And the Society of Civil Engineers say it will take 
another couple of trillion dollars to get us into the 21st 
century. If you want to ease congestion on highways, maybe we 
ought to look at high-speed rail and train systems, like Europe 
does. They get people around a lot. All of those things can 
help with us and create jobs in the process.
    Mr. Payne. Thank you, sir. And Mr. Smith, let me also say 
that my home town is a big hub for you, and we--you know, if 
you want to continue to expand there, we welcome that. But you 
know, there are quite a few people in my district that benefit 
from your company and being able to work for FedEx. And just 
wanted to say thank you. I was able to tour the facility when I 
first got to Congress, and found a very impressive operation.
    You and Mr. Willisch both spoke on the need to modernize 
our ports, our airports and our seaports. You know, we have 
seen Federal investment in the Port of Newark and Elizabeth, 
but much, much more is needed to stay competitive. Newark 
Airport is aging, as well. I know both of your companies rely 
on these critical ports to ship goods. Can you speak more 
specifically to investing the investments that our aging 
airports and seaports need to keep you competitive?
    Mr. Willisch. Well, we obviously--as we expand, just from 
2007 to today, we have roughly almost doubled our volume that 
we sell in the United States, which also means, for example, 
our facilities in Port Jersey need to expand. We are really 
trapped there, as far as the size of our facilities is 
concerned. We have no way to grow. So it really is one thing 
that we can get the right size of ships into the ports. And the 
other thing is, of course, the size of the port. Both 
absolutely crucial to us, and we have a lot of issues, 
especially in Port Jersey.
    Mr. Payne. Right. Yes, they--the dredging has been finished 
there, and they are working on raising the Bayonne Bridge--will 
help facilitate, you know, the type of commerce that you are 
talking about increasing.
    Sir, would you like to----
    Mr. Smith. Well, when I mentioned airports, Newark is a 
huge hub for FedEx. In most cases you have to separate airport 
infrastructure from passenger terminals and additional runways. 
In the case of the airport infrastructure, we pay landing fees. 
So we are a huge contributor to the maintenance and operation 
of Newark Airport. We pay 80 percent in Memphis, a huge 
percentage at our big hub in Indianapolis.
    On the passenger side of the house, just as Mr. DeFazio 
said, that has to be done through some sort of user fee like 
PFCs or what have you. And the main thing is more runways and a 
modernized ATC system to make the air transport network more 
efficient and have more capacity.
    Mr. Payne. OK.
    Mr. Smith. The latter are Federal responsibilities.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Payne. Thank you. Thank you.
    Mr. Shuster. Thank you, Mr. Payne.
    Mr. Babin?
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. I want to 
thank each and every one of you for being here, giving us this 
great information that we need.
    I am from Texas, and represent the 36th District. I have 
four ports, including the Port of Houston. And more 
petrochemical facilities than any other district in the 
country. And so, infrastructure and transportation is a huge 
thing for us.
    But, with--we are talking about user fees versus normal 
taxation. With a $20 trillion national debt and a $600 billion 
deficit coming up, looks like, funding is the 900-pound gorilla 
in the room. So I would like to start with Mr. Trumka, if you 
don't mind.
    One idea that is frequently coming up is to dedicate the 
revenues and royalties from resources that development--
resource development which lie under our public lands. And--
which is estimated in some cases to be several trillions and 
trillions of dollars, which would go towards construction of 
public works projects, which would include roads and bridges, 
and all the things that we have been talking about today.
    This would be American energy produced by American workers 
to finance and build projects with American labor that benefit 
American families. Is there any reason that you can give why 
such a concept might not be a top priority for an organization 
like the AFL-CIO, Mr. Trumka?
    Mr. Trumka. We would be willing to look at it. Of course, 
the devil is always in the detail. If it were a giveaway to 
anybody, rather than real projects like you just described, we 
would probably blow the whistle on it. But I think we would be 
supportive of putting Americans to work, having energy 
independence, and being able to create and repair our 
infrastructure in the process.
    Dr. Babin. Right, OK. And anybody else who would like to 
comment on that, as well?
    Mr. Smith. We would be fully supportive of it, obviously. 
As Mr. Trumka said, the details are important. But we are 
blessed with these energy resources here in the United States. 
We ought to produce them and use some of the revenues to 
develop new alternatives and fund infrastructure. It would be a 
great idea.
    Dr. Babin. Yes, ma'am. Ms. Andringa?
    Ms. Andringa. Yes, I mentioned earlier--manufacturers are 
very dependent on energy and are always looking at all of the 
above, including wind and solar, but definitely traditional as 
well. And natural gas has been a very important thing for 
manufacturers.
    So I think it really could do two things: help 
manufacturers with the most effective cost for energy that we 
need to run our plants, but also from a source that could be 
used to help with some of the other issues in this country, and 
certainly provide jobs.
    Dr. Babin. Thank you. Anyone else want to add to that?
    OK, Mr. Chairman, I yield back the balance of my time, and 
thank you very much.
    Mr. Shuster. Thank you, Dr. Babin, thank you.
    Mr. Davis, final question.
    Mr. Davis. Thank you, Mr. Babin, for yielding back the 
balance of your time.
    Dr. Babin. You bet.
    Mr. Davis. We appreciate it.
    Dr. Babin. You bet.
    Mr. Davis. Hey, thank you to the entire panel. Let me get 
quickly to my question. Coming from Illinois, I represent a lot 
of areas along the Mississippi and Illinois Rivers, very 
concerned about water infrastructure. I am glad that that was 
addressed by many of my colleagues before me.
    But let me start with Mr. MacLennan. We have had Cargill 
testify before my other committee, the House Ag Committee, so 
it is great to have you here on the T&I Committee to talk about 
that nexus of infrastructure that really helps the 
manufacturing sector in States like Iowa, also helps the 
agriculture sector in States like Illinois that are, you know, 
slightly better agriculturally than States like Iowa, of 
course.
    Mr. MacLennan, can you articulate for the committee the 
importance of our Nation's inland waterway system, more so than 
what you did with some other questions? Specifically along the 
Illinois and Mississippi Rivers, where you have many of your 
facilities.
    Mr. MacLennan. So, as you know, Congressman, in your 
district you have locks 20 through 15 along the--the Illinois 
and the Upper Mississippi, riverways, transit, port are crucial 
for the rural economy, for the ag economy, for farmers to be 
able to get their crops to where they need to be.
    And we talked early on in the testimony about the world--
the country going to 400 million people, the world going to 900 
million people--9 billion people, rather. And our States, the 
Midwestern States, are feeding the world. And if we can't get 
the grain--and we saw it when you had the polar vortex, and 
things freeze up, and you don't have appropriate 
infrastructure. It is--all creates a backlog. And so it is--the 
ports are the key--one of the key choke points for the ag and 
rural economy, to be able to get our exports to the rest of the 
world, to get the food where it is needed.
    Mr. Davis. Well, I completely agree. And I think we also 
agree for about 80 years we are--we have heard somewhat for 
about 80 years, but we have heard about long delays in our 80-
year-old locks.
    Mr. MacLennan. Yes.
    Mr. Davis. And sometimes lasting hours at a time, because 
the infrastructure is falling apart.
    Mr. MacLennan. Yes.
    Mr. Davis. Those have a tremendously negative impact on 
your business, correct?
    Mr. MacLennan. Significantly negative impact on our 
business, and that of our farmer customers, as well.
    Mr. Davis. Absolutely. In 2007, do you know Congress 
authorized NESP, the--planning to rebuild our crumbling 
infrastructure along the Mississippi and Illinois Rivers?
    Mr. MacLennan. Yes.
    Mr. Davis. But in 2010 the Obama administration ended the 
preconstruction engineering and design work for NESP, and 
actually requested zero dollars in the last Presidential budget 
for this project. I think you and I agree that this is 
something that is very crucial, and we hope the next 
administration will look at this and also look at some of the 
most necessary improvements.
    Can you, though, explain to the committee and explain to 
the administration through this committee your--from your 
position, why do we need to expand the locks from 600 to 1,200 
feet?
    Mr. MacLennan. Because when you have chambers that are, you 
know, that small, you can't get the tow boats through as a 
unit. You got to break up the barges, you got to break up the 
bulk. It is time-consuming, it is expensive. And that means, 
when you have a higher cost and a slow--a less-efficient 
transportation system at the locks, which--as you know, it is 
not a sexy topic.
    I mean people think about highways and airports. But in our 
districts and our business, things like locks, ports, riverways 
are vital to the ag and rural economy. But when you add that 
cost and time, it flows back to the price that ultimately gets 
to the farmers. And so they are realizing that that economy is 
then impacted because they can't get their products through in 
an efficient way.
    Mr. Davis. Well, and last question. On a scale of 1 to 10, 
how do you rank the improvements on the Mississippi and 
Illinois and our waterway systems, and the need to do that for 
your customers?
    Mr. MacLennan. Ten.
    Mr. Davis. I was hoping you would say, like, 11 or 12, but 
10 will do. That is OK.
    [Laughter.]
    Mr. MacLennan. So I will ``spinal tap.''
    Mr. Davis. OK.
    Mr. MacLennan. I will go to 11.
    Mr. Davis. Thank you, thank you. I really appreciate you 
being here, and thank you for your questions.
    And, you know, while I have got about 40 seconds left, I 
just want to say, you know, sometimes there are folks in my own 
party who don't believe we should invest in infrastructure. And 
we need to hear from you--and we did today--about how any 
investment in infrastructure helps to actually grow our 
economy, grow jobs, grow opportunity, and be a net benefit in a 
cost benefit analysis.
    And, Mr. Smith, quick question. Do you agree that we--when 
America invests in infrastructure, it is companies like yours 
that can continue to grow some of the best-paying jobs?
    Mr. Smith. No question about it.
    Mr. Davis. Thank you. I yield back the balance of my time.
    Mr. Shuster. Thank you. And, with that, Mr. DeFazio for a 
closing statement?
    Mr. DeFazio. Thank you, Mr. Chairman. I want to thank 
everybody. I think this was an excellent hearing. We kept you 
here a very long time. I think we found an incredible amount of 
common ground, and I intend to continue to push for us to 
actually finally put our money where our agreement has been, 
and get some of these things done.
    I just do want to note that the cost of congestion since we 
began the hearing for American individuals and business was 
$54,750,000. So it is time to stop that clock and get America 
moving again. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. DeFazio. And I saw a sigh of 
relief on the witnesses when I said Mr. DeFazio for a closing 
statement, so I will be brief, also.
    First, let me say thank you very much for being here. I 
know each and every one of you has a tremendous demand on your 
time. So we can't thank you enough for being here. I got to say 
this is one of the best panels that I have ever been involved 
with getting testimony from. Again, you are coming from 
different places, you got different products, you do different 
things, but there is common ground, as Mr. DeFazio--and that 
point being there is common ground.
    Somebody asked the question about informing the public. 
That was Pennsylvania, it was Mr. Smucker. And Pennsylvania 
model was that they did inform the Pennsylvania citizens. It 
was really the private sector that went out and really made the 
pitch to the taxpayers of Pennsylvania to get them on board to 
do this.
    So again, as we move forward, we are going to do our part, 
but we hope you folks will be out there banding together in 
your associations to educate the American people to the very 
basic--we talk about--you know, Mr. DeFazio just pointed out 
$54 million. That is a lot of money. One hundred and twenty 
billion dollars or so is what we--every year in congestion.
    The average American has no--it is a lot of money, but they 
have no idea what that means to them. So talking to them about 
what it does to the cost of a package or foodstuffs or an 
automobile or your equipment, what that costs them in real 
dollars, you know, basically down to a cup of coffee--is it a 
nickel more or a dime more because of the congestion you face? 
I think that is really an important message that we all have to 
get out there to the public.
    But again, this was--can't thank you enough--very 
informative. But it is all about building that 21st-century 
infrastructure for America. And I know you are all committed to 
it. This committee is committed to it, and we are going to work 
hard to see that we get this done.
    So thank you very much for being here. And I would ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
additional comments, information submitted by Members or 
witnesses to include in the record of today's hearing.
    Without objection, so ordered.
    I would like to again thank you very much for being here. 
And the committee is adjourned.
    [Whereupon, at 1:12 p.m., the committee was adjourned.]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       [all]
    
                                    
</pre></body></html>
